   FAA NEEDS TO IMPROVE ASDE-X
MANAGEMENT CONTROLS TO ADDRESS
COST GROWTH, SCHEDULE DELAYS, AND
          SAFETY RISKS
       Federal Aviation Administration
        Report Number: AV-2008-004
        Date Issued: October 31, 2007
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs To Improve ASDE-X                                                  Date:    October 31, 2007
           Management Controls To Address Cost Growth,
           Schedule Delays, and Safety Risks
           Federal Aviation Administration
           Report Number AV-2008-004

  From:    David A. Dobbs                                                                   Reply to
                                                                                            Attn. of:    JA-1
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Acting Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) Airport Surface Detection Equipment-Model X
           (ASDE-X) program. FAA is developing ASDE-X to aid air traffic controllers in
           preventing ground collisions on the airport surface and reducing runway
           incursions. 1 FAA also intended for ASDE-X to improve airport safety by
           operating in all-weather conditions, especially during low-visibility conditions—
           such as fog, rain, and snow—when controllers cannot see aircraft or vehicles as
           they move about the airport surface.

           ASDE-X is an important safety program that has undergone significant changes
           since its inception in October 2000. FAA originally planned ASDE-X as a low-
           cost alternative to its existing Airport Surface Detection Equipment-Model
           3/Airport Movement Area Safety System (ASDE-3/AMASS). 2 FAA planned to
           deploy ASDE-X at 25 small- to medium-sized airports that had no surface
           surveillance technology and at 1 larger airport that had ASDE-3/AMASS.
           However, in September 2005, FAA made a major shift in its ASDE-X acquisition
           strategy and now plans to upgrade 25 ASDE-3/AMASS airports with ASDE-X
           and deploy it at only 10 airports that had no surface surveillance technology. FAA

           1
               A runway incursion is any incident at an airport involving an aircraft, a vehicle, person, or an object on the ground
               that creates a collision hazard or results in a loss of separation with an aircraft taking off, intending to take off,
               landing, or intending to land. FAA’s definition only applies to airports with operating air traffic control towers.
           2
               AMASS provides software enhancement for the ASDE-3 radar designed to monitor airport surface traffic and alert
               air traffic controllers to potential collisions on the runways. AMASS is deployed at 34 of the Nation’s largest and
               busiest airports. FAA plans for ASDE-X to build upon AMASS’s capabilities.


                                                                        i
concluded that this would yield the greatest return on its investment and that the
maximum safety benefits would be gained by deploying ASDE-X capabilities to
airports with larger traffic counts or more complex operations (e.g., airports that
use the same runways for arrivals and departures). Our audit objectives were to
determine (1) whether FAA’s strategy for deploying ASDE-X for operational use
is cost effective, given the changes in the program’s deployment strategy, and (2)
to what extent the ASDE-X program will reduce the risk of ground collisions or
accidents caused by runway incursions. We conducted this performance audit in
accordance with generally accepted Government Auditing Standards as prescribed
by the Comptroller General of the United States. Our objectives, scope, and
methodology are discussed in exhibit A.


BACKGROUND
The purpose of ASDE-X is to help maintain safe separation of aircraft and
vehicles on the airport surface and aid controllers in avoiding ground collisions—
some of the most serious aviation incidents. In fact, the worst aviation accident in
history, in which 583 people were killed, occurred in 1977 on a runway in the
Canary Islands. Recent examples include the August 2006 accident in Lexington,
Kentucky, that caused the loss of 49 lives when a pilot mistakenly taxied onto a
closed runway and executed a take-off roll on a runway that was too short. The
ASDE-X system is intended to provide direct alerts to controllers of potential
aircraft collisions on closed runways.

Prevention of runway incursions and ground collisions has been on the National
Transportation Safety Board’s (NTSB) “Most Wanted Transportation Safety
Improvements List” since 1990. FAA designed ASDE-X in response to the NTSB
recommendations to require ground movement safety systems at airports with
scheduled passenger service to prevent runway incursions and provide direct
warnings to flight crews.

The ASDE-X core surveillance capabilities are intended to depict aircraft and
vehicle position and identification overlaid on a color map of the airport. Through
system enhancements, ASDE-X safety software monitors the traffic for conflict
and, in various scenarios, is able to produce an alert (visual and audible) to warn
controllers of pending ground collisions. To determine target positions, ASDE-X
processes data from airport surface and terminal radars and receives data from
airfield antennas that transmit and receive both transponder beacon and Automatic
Dependent Surveillance-Broadcast (ADS-B) 3 data. A computer fuses all the data
into a target position and, based on the trend of the target position movement,
predicts future positions of aircraft and vehicles.

3
    ADS-B provides accurate Global Positioning System satellite-based position reports for equipped aircraft.


                                                           ii
 On October 11, 2000, FAA issued a letter contract to Sensis Corporation (the
 ASDE-X prime contractor) to begin ASDE-X development. FAA and Sensis
 agreed to the contract terms on November 22, 2000, and formed a cost-sharing
 agreement on the first system. The first ASDE-X system was priced at
 $8.3 million; however, the actual production cost escalated to $28.7 million (a
 246-percent increase.) In September 2001, 11 months after development began,
 FAA’s Joint Resource Council 4 (JRC) approved the first ASDE-X program
 baseline at a cost of $424.3 million to implement 26 operational systems by 2007.
 As table 1 shows, significant changes were made to the ASDE-X baseline even
 before FAA shifted its strategy in September 2005 thereby increasing the total
 program cost to $549.8 million and pushing program completion to 2011.

                       Table 1. History of ASDE-X Strategy Changes
         Date                           Purpose                           No. of         Planned              Cost
                                                                         ASDE-X         Completion          Increase
                                                                         Airports         Date            ($ in millions)
 Sept. 2001           First program baseline                                   /a             2007               $424.3
                                                                            26
 Jun. 2002            Second baseline: upgrade seven more                     /b              2007                $80.9
                                                                            33
                      ASDE-3/AMASS airports
 Oct. 2003            Upgrade two more ASDE-3/AMASS                            /c                  2007               $0
                                                                             35
                      airports
 Sept. 2005           Third baseline/major strategy shift:                   35/d                  2011           $44.6
                      upgrade 25 ASDE-3/AMASS airports
     Current
                                                                             35             2011             $549.8
     Total
Source: ASDE-X JRC baseline documents
/a
   25 airports without surface surveillance and 1 ASDE-3/AMASS airport
/b
   25 airports without surface surveillance and 8 ASDE-3/AMASS airports
/c
   25 airports without surface surveillance and 10 ASDE-3/AMASS airports
/d
     10 airports without surface surveillance and 25 ASDE-3/AMASS airports

 Congress continues to support the ASDE-X program. From 2000 to 2007, it
 appropriated about $400 million for ASDE-X implementation. In fiscal year (FY)
 2006, FAA requested $27.2 million for the program but received an additional
 $3 million due to conferees’ concerns about runway incursions and to expedite
 installation and deployment of ASDE-X equipment. In FY 2007, FAA requested
 $63.6 million—and Congress approved $70.6 million—for further software
 development, additional hardware equipment, test and evaluation activities, and
 program management support.




 4
      The JRC is FAA’s senior decision-making body that approves funding for major acquisitions.


                                                           iii
RESULTS IN BRIEF
The ASDE-X program is at risk of not meeting its cost and schedule goals to
commission all 35 ASDE-X systems for $549.8 million by 2011 and may not
achieve all planned safety benefits. When we testified 5 in May 2007, FAA had
already expended about $288 million (52 percent) and obligated about
$350 million (64 percent) of ASDE-X program planned funding but had only
deployed 8 of 35 systems for operational use. Additionally, at the deployed sites,
FAA had yet to implement the planned capability to alert controllers of potential
collisions on intersecting runways and taxiways.

In July 2007, FAA commissioned its ninth ASDE-X system for operational use at
Louisville International Airport after addressing a number of longstanding
technical problems. The Louisville system is the first to be deployed with the
capability to alert controllers of potential collisions on intersecting runways and
converging taxiways. Under certain circumstances, however, the system still does
not provide timely alerts for controllers to take appropriate action. Moreover,
FAA did not test the converging taxiway capability before operations began.
Additionally, in June 2006, FAA issued policy 6 governing the use of ASDE-X
during inclement weather after concluding the system was capable of reducing
excessive false alerts during heavy precipitation. However, the system is
susceptible to dropping targets during heavy precipitation. While FAA’s efforts to
address these problems have shown progress, it is too early to conclude whether
ASDE-X can meet the unique needs of each airport scheduled to receive the
system.

To achieve ASDE-X program goals and effectively manage the program, FAA
needs to (1) improve ASDE-X management controls to reduce the risks of further
cost growth and schedule delays; (2) resolve operational performance issues with
key ASDE-X safety capabilities planned to reduce the risk of ground collisions on
intersecting runways and taxiways, including during inclement weather; and (3)
work with airlines and airport officials to provide safety enhancements that were
not included in the ASDE-X program re-baseline but are vital to reducing the risks
of ground collisions caused by pilot and vehicle operator errors.

FAA needs to improve ASDE-X management controls to reduce the risks of
further cost growth and schedule delays. Although the JRC approved the re-
baselined cost and schedule estimates for ASDE-X in September 2005, by
December 2006, FAA had significantly increased cost estimates for six major
ASDE-X activities. FAA also did not achieve ASDE-X schedule goals in FY
2006.
5
    OIG Testimony, CC-2007-054, “FAA’s FY 2008 Budget Request: Key Issues Facing the Agency,” May 10, 2007.
    OIG reports and testimonies can be found on our website: www.oig.dot.gov.
6
    FAA Notice N JO 7210.660, “Safety Logic Systems Procedures for ASDE-X 5.0.7.2 and AMASS,” June 1, 2007.


                                                     iv
FAA needs to develop realistic cost estimates through ASDE-X completion to
determine whether the program can be procured within the revised costs. FAA
increased ASDE-X cost estimates for six activities central to implementing the
program by $94 million; despite this significant increase, it did not revise the
overall estimated program costs. These costs increased for two main reasons: (1)
FAA underestimated the cost of ASDE-X hardware, software, and program
management requirements and (2) FAA has not addressed improper contract
administration practices that we advised the Agency of in June 2006 (such as lack
of contract terms and conditions and payments to the contractor before the
completion of meaningful work).

To stay within the baseline cost of $549.8 million, FAA offset the cost growth by
decreasing other activities required to complete ASDE-X implementation (see
exhibit B). However, we question the accuracy of these estimates because we
found a $20 million disagreement between FAA’s and the prime contractor’s
estimates of the installation costs. Also, ASDE-X program officials decreased the
telecommunications cost estimates from $16.5 million to $8.5 million. They later
reported that telecommunications costs were actually one to two times higher than
the original estimates, which could increase the cost to at least $33 million.
ASDE-X program officials need to develop realistic cost estimates for all activities
required to complete ASDE-X implementation.

As of July 2007, FAA had expended about $314 million (57 percent) and
obligated about $378 million (69 percent) of the planned funding but had only
deployed 9 of 35 systems for operational use. FAA is now challenged with
implementing the 26 remaining ASDE-X systems at the more complex airports
with less than half of the planned funds remaining. Although FAA has initiated
work to implement some of the remaining systems, we remain concerned because
until FAA develops realistic cost estimates, it will be difficult to determine if
ASDE-X is cost effective.

FAA also needs to correct identified prohibited and improper contract
administration practices. In our 2006 management advisory to FAA (see
exhibit C), we expressed concern that awarding fees for system enhancements
based on costs incurred rather than negotiated fixed-fee dollar amounts
encouraged rather than discouraged cost growth. Because FAA has allowed
questionable contract practices, has not formalized a final agreement with the
prime contractor for these activities, and does not compare actual contract funding
to the current estimates, we are concerned that ASDE-X cost elements (e.g.,
Software Design and Development) do not have credible estimates.

ASDE-X program officials need a realistic master schedule through ASDE-X
completion. FAA did not achieve ASDE-X schedule goals in FY 2006—only four
of seven planned ASDE-X systems were commissioned for operational use. These

                                         v
schedule delays occurred because of FAA’s failure to establish a realistic master
schedule through ASDE-X completion that outlines when all activities associated
with commissioning each system for operational use will be completed. For
example, at the three airports where ASDE-X systems failed to be commissioned,
FAA: (1) did not resolve testing deficiencies at one airport, (2) installed equipment
but did not initiate testing at another airport, and (3) did not install the equipment
that was delivered to another airport. Delays also occurred because of challenges
in interfacing ASDE-X with the legacy radar system. FAA has since revised the
schedule for the three airports but did not report in the updated waterfall schedule
when the systems will be commissioned for operational use. FAA also no longer
reports the overall estimated completion date for the remaining ASDE-X systems.
Since the waterfall schedule was released, FAA commissioned the ninth system in
Louisville in July 2007; this leaves 26 systems remaining to be commissioned (see
exhibit D).

FAA’s plans to expedite ASDE-X deployment at Chicago O’Hare airport from
2009 to 2007 further highlight the need for FAA to develop a master schedule to
manage the impact of unplanned schedule changes. According to FAA,
refocusing resources on a single site can cause a domino effect on the schedule;
this may impact FAA’s ability to meet its schedule goals for 2007 and its current
program goal to complete system deployment by 2011.

To address ASDE-X cost and schedule uncertainty, FAA needs to correct
identified improper contract administration practices and establish a mechanism,
such as earned valued management (EVM), 7 to track cost and schedule goals for
all major activities associated with implementing ASDE-X as required by FAA’s
Acquisition Management System policy.

FAA needs to resolve operational performance issues associated with key
ASDE-X safety capabilities to reduce the risks of ground collisions. The
ASDE-X program is at risk of not achieving all of its planned safety benefits.
Although the Louisville ASDE-X system provides key safety capabilities required
to reduce the risks of ground collisions on intersecting runways and converging
taxiways, under certain circumstances the system does not generate timely alerts
for controllers to take appropriate action. FAA also needs to resolve operational
problems associated with heavy rain that cause ASDE-X to be susceptible to
dropped targets and subsequent system outages before commissioning this
capability for operational use at other airports.

Safety alert capability for intersecting runways and converging taxiways: Last
year, near collisions between aircraft on intersecting runways and converging

7
    EVM is a management tool that can be used to identify early warning indicators of potential cost overruns and
    schedule delays and to make critical decisions in managing contracts.


                                                        vi
taxiways highlighted the need for FAA to implement this capability at all airports.
For example, in March 2006, a controller at Chicago O’Hare mistakenly cleared
two commercial aircraft for takeoff on intersecting runways. Another controller
spotted the error and ordered both aircraft to abort their take-off rolls. Before
stopping, however, the 2 aircraft came within 100 feet of each other at the runway
intersection. In January 2007, there was a collision between two aircraft operating
on converging taxiways at Milwaukee International Airport.

In July 2007, FAA commissioned its first ASDE-X system with the capability to
alert controllers of potential collisions on intersecting runways and converging
taxiways at Louisville International Airport. FAA commissioned the system after
testing a new ASDE-X software build at Louisville that incorporates these
capabilities.     During testing, ASDE-X experienced several operational
performance problems such as unscheduled system outages and untimely alerts to
controllers. To address unscheduled system outages, FAA upgraded ASDE-3
radar with new software. The test result concluded that the problems associated
with unscheduled system outages had been resolved.

With respect to timeliness of alerts, tests performed by FAA’s Independent
Operational Test and Evaluation (IOT&E) team raised some concerns.
Specifically, under certain circumstances alerts on intersecting runways involving
taxiing aircraft may not allow enough time for controllers to warn pilots or vehicle
operators. For example, the team observed a scenario where ASDE-X alerts were
considered to be too slow: an aircraft landed on one runway as another aircraft
was taxiing on a runway toward the intersection where the other aircraft had
landed. In a real-life situation, this could have caused a serious collision.

FAA also did not test the converging taxiway capability, although the
January 2007 accident in Milwaukee highlighted the importance of verifying this
key safety capability. Despite these operational performance risks, FAA decided
to commission the ASDE-X safety alert capability for intersecting runways and
converging taxiways. In our opinion, FAA needs to take corrective actions to
address ASDE-X system limitations pertaining to alert timeliness for taxiing
aircraft. FAA also needs to fully test the converging taxiway capability. While
FAA’s efforts to address these problems have shown progress at Louisville, it is
too early to conclude whether ASDE-X can meet the unique needs of each airport
scheduled to receive the system.

System susceptibility to dropped targets and system outages during periods of
heavy rain: A key capability shortfall of ASDE-3/AMASS that ASDE-X was
supposed to address involved improving airport safety by operating in all weather
conditions and suppressing false alerts during heavy rain storms. FAA designated
Orlando as its operational site to test a new ASDE-X software build or “rain
configuration” that Sensis developed to address this problem. FAA finished

                                        vii
testing this upgrade and issued policy on June 1, 2007, governing
ASDE-X usage of rain configuration software upgrade during moderate to extreme
precipitation.

While we commend FAA’s progress, we have concerns because (1) the ASDE-X
upgraded system is susceptible to dropping targets and experiencing system
outages and continues to generate false alerts and (2) FAA did not test the new
rain configuration capability with intersecting runways or ASDE-3 radar, which
are present at the majority of the ASDE-X airports that will receive this upgrade.
Therefore, FAA needs to properly test this new capability as it is being
implemented to ensure that it meets the unique needs of the 35 ASDE-X airports.

FAA needs to work with airports and airlines to provide safety enhancements
that were not included in the ASDE-X program re-baseline but are vital to
reducing the risks of pilot and vehicle operator errors. Although ASDE-X
provides direct warnings to controllers of potential ground collisions, it does not
provide direct warnings to pilots or vehicle operators—even though they caused
about 70 percent of the runway incursions over the last 3 years.

Direct warnings to pilots: FAA initially planned ASDE-X in response to an NTSB
recommendation to provide direct warnings to flight crews (e.g., pilots).
However, current plans for ASDE-X do not include direct warnings to pilots, and,
for this reason, NTSB rated ASDE-X as an unacceptable response to its
recommendation. This is important because over the last 3 years about 54 percent
of runway incursions were caused by pilot errors, which are precursors to ground
collisions.

As we reported in the past, 8 technologies that help pilots know their and others’
locations on the runway (e.g., in-cockpit moving map displays and ADS-B) must
be expedited to avoid close calls that continue to pose a serious safety risk to
airline crews and passengers. In March 2007, FAA announced plans to expedite
the certification and use of in-cockpit moving map displays to show pilots their
actual position on the airport surface. In August 2007, FAA also took important
steps by awarding a contract for the development and installation of the ground
infrastructure for ASD-B.

When displayed in the cockpit, ADS-B information can provide a “second set of
eyes” by including the pilot in the loop to detect and alleviate hazardous surface
situations. FAA plans to mandate “ADS-B Out” where aircraft will broadcast
their position to ground systems but does not intend to mandate the use of


8
    OIG Report Number AV-2001-066, “Despite Significant Management Focus, Further Actions Are Needed To
    Reduce Runways Incursions,” June 26, 2001.


                                                  viii
“ADS-B In” or cockpit displays. FAA hopes the industry will voluntarily equip
with the technology. 9

Over the next several years, FAA plans to work with the United Parcel Service at
Louisville to develop air-to-air and surface applications for ADS-B In and cockpit
displays. FAA plans to integrate the use of ADS-B, cockpit displays, and ASDE-
X. This presents FAA with a unique opportunity to determine whether these three
technologies can be combined to simultaneously alert controllers and pilots of
potential ground collisions. FAA should then determine the cost and timeline for
implementing this capability at all ASDE-X airports.

Positive identification of vehicles operating on the airport surface: ASDE-X is
designed to reduce the risks of ground collisions caused by vehicle operators by
providing positive identification of vehicles operating on the airport surface.
However, this safety feature only functions when airport vehicles are equipped
with transponders. This capability is important because over the last 3 years,
approximately 16 percent of runway incursions were caused by vehicle operators.
For example, in February 2007 at Denver International Airport, an aircraft that had
just landed nearly collided with a snow plow after the plow driver crossed a
runway without clearance from air traffic control or airport operations directly in
front of the aircraft. According to the flight crew, they had to use “significant”
reverse thrust and brakes to halt the aircraft on the runway. Until airport vehicles
are equipped with transponders, controllers will be limited in their use of ASDE-X
because they will not be able to positively identify vehicles operating on the
airport surface. Therefore, FAA should work with airports to aggressively
promote equipping their vehicles with transponders as a vital step in reducing the
risks of ground collisions caused by vehicle operator error.

To reduce the risk of ground collisions and maximize ASDE-X capabilities, FAA
needs to (1) work with airlines to determine whether ASDE-X can be used with
other planned technologies to provide direct warnings to pilots and (2) encourage
airport officials to equip airport vehicles with transponders.


SUMMARY OF RECOMMENDATIONS
Our recommendations focus on actions that FAA needs to take to improve
ASDE-X management controls to reduce cost growth, schedule delays, and safety
risks. FAA needs a well-defined, executable plan that (a) aligns realistic cost
estimates with firm schedule goals; (b) identifies when all ASDE-X systems with
all planned capabilities will be implemented through program completion;

9
    OIG Testimony CC-2007-100, “Challenges Facing the Implementation of FAA’s Automatic Dependent
    Surveillance–Broadcast Program,” October 17, 2007.


                                                      ix
(c) corrects improper contract administrative practices; and (d) establishes a
mechanism to monitor and track ASDE-X program cost, schedule, and
performance.
To reduce the risks of ground collisions caused by pilots and vehicle operators
FAA should: (a) determine whether ASDE-X, ADS-B, and in-cockpit moving
maps technologies can be combined to simultaneously alert controllers and pilots
of potential ground collisions; (b) determine the cost and timeline for
implementing this capability at all ASDE-X airports; and (c) work with airports to
aggressively promote equipping their vehicles with transponders to maximize
ASDE-X capabilities as a vital step in reducing the risks of ground collisions
caused by vehicle operator error. Our full recommendations can be found on
page 16.


AGENCY COMMENTS AND OIG RESPONSE
On August 6, 2007, we submitted our draft report to FAA for comment. FAA
responded on September 25, 2007, and concurred with all six recommendations.
FAA stated that each recommendation was valid. However, FAA’s response to
our recommendation for developing realistic cost and schedule parameters is
unclear and does not fully address our concerns about reducing risks with this
important safety program. Further, we strongly disagree with the Agency’s
comment that during the audit it had already begun employing what we
recommended. We are concerned that the Agency’s response will have the effect
of masking ongoing problems with FAA’s ASDE-X program management and
oversight of contractor performance.

For example, it has been more than a year since we issued our management
advisory (see exhibit C) to FAA in June 2006. The advisory recommended that
the Agency take immediate steps to correct prohibited and improper contract
administration practices with the ASDE-X program. At the time of our draft
report submission in August 2007, FAA had yet to take corrective actions to
address our concerns raised in June 2006. According to FAA’s response, the
ASDE-X contracting officer planned to establish new procedures with Sensis and
FAA’s Resident Quality Reliability Officer to correct prohibited and improper
contract administration practices by the end of September 2007—about 15 months
after we first brought this to FAA’s attention.

FAA concurred with our recommendation to develop a realistic cost estimate to
complete ASDE-X implementation. Although FAA has yet to complete contract
negotiations with Sensis to obtain reliable and supportable contract cost estimates,
the Agency states that costs are consistent with the FY 2005 baseline. FAA’s
response is difficult to understand since it did not plan to finalize cost estimates for
two significant unpriced contract requirements with Sensis until the end of

                                           x
September 2007. We continue to believe that ASDE-X is proving more costly to
implement than expected and that considerable work lies ahead. As we note in our
report, until negotiations are complete, FAA will not have a firm understanding of
how much it will cost to complete ASDE-X or what capabilities will ultimately be
delivered.

In response to our recommendation that FAA develop a master schedule that
clearly details when all ASDE-X systems will be fully implemented for
operational use, the Agency stated that the Program Office is using a “master
integrated working schedule” to track deployment activities. Despite repeated
requests during our review for a master schedule, the Program Office did not
provide our office with this information. Instead, the Program Office only
provided us with a waterfall schedule. This is an incomplete document because it
lacks details regarding when all implementation activities and planned capabilities
associated with commissioning ASDE-X for operational use will be completed for
each airport.

FAA officials stated that they did not provide the Office of Inspector General with
the master schedule because it is an internal document that is not released outside
of the Agency. The ASDE-X Program Office’s behavior and lack of transparency
on this matter is unacceptable. This is a violation of the Inspector General Act of
1978. 10 The act authorizes the Inspector General to have access to all records
relating to Federal programs and request such information or assistance as may be
necessary for carrying out its duties and responsibilities. Accordingly, we are
asking the Acting Administrator to take steps to prevent a reoccurrence of this
problem.

We do not understand why FAA withheld this information pertaining to the master
schedule given the importance of the program in reducing accidents on runways
and recent congressional oversight. We testified before the Senate Committee on
Appropriations in the spring of 2007, and cost and schedule risk with ASDE-X
was a central issue of the hearing. ASDE-X is an important safety program, and
Congress and stakeholders need a clear understanding of what it will take to
complete this effort with all promised capabilities.

FAA provided us with an updated waterfall schedule in its response to our draft
report. We continue to believe that this schedule is incomplete and therefore does
not meet the intent of our recommendation. We believe that a system deployment
should not be considered “complete” until all planned capabilities (e.g., core and
system enhancements) are fully tested and in place. Moreover, while FAA refers
to a master integrated working schedule in its response, the Agency still has not
provided us with the information.

10
     Inspector General Act of 1978, 5 U.S.C. App. § 6 (1978).


                                                           xi
FAA’s response included attachments showing its current assessment of the
ASDE-X program’s cost and schedule along with other program elements.
However, this information only serves to underscore our concerns. For example:

 • Attachment A - FAA’s calculation of the ASDE-X program’s re-baseline
   cost estimate including distribution of cost in the original estimate: FAA
   commented that the ASDE-X program’s baseline cost estimates have remained
   consistent with the September 2005 re-baseline. However, we question how
   FAA can arrive at this conclusion given the fact that the Agency acknowledges
   in its response that it has yet to complete negotiations with Sensis to obtain
   supportable contract cost estimates. FAA also acknowledges that it has yet to
   establish a mechanism such as EVM to track and monitor ASDE-X cost. We
   repeatedly requested ASDE-X program officials and cost analysts to provide us
   with cost estimates so we could verify ASDE-X original and actual costs. We
   either received conflicting cost information or were informed that the costs had
   changed for some implementation activities and that details did not exist to
   break out the costs for ASDE-X implementation activities. Finally, these
   estimates were released by FAA after we issued our draft report; therefore, we
   could not verify FAA’s source or the accuracy of these estimates.

 • Attachment B – ASDE-X waterfall schedule: This schedule is dated “as of
   August 30, 2007,” but still shows airports without planned commissioning
   dates. This reaffirms our recommendation to develop an ASDE-X master
   schedule detailing when all activities and planned capabilities will be
   commissioned for operational use. Even some airports already listed as
   commissioned still have site enhancements scheduled for completion in 2008.

 • Attachment C - ASDE-X software enhancement schedule: This was
   developed on September 21, 2007, after we issued our draft report. We
   commend FAA for taking action and acknowledge this as a step in the right
   direction.

 • Attachment D - ASDE-X software test events and completion dates:
   According to FAA, this document shows evidence that the converging taxiway
   capability was fully tested by the test team from FAA’s Technical Center. The
   intent of our recommendation was to ensure that FAA fully tests ASDE-X
   planned capabilities at each airport scheduled to receive the system given the
   unique characteristics of each site.

A complete discussion of FAA’s comments and our response can be found on
pages 17 through 20. FAA’s complete response is included in the appendix.




                                       xii
ACTIONS REQUIRED
We consider FAA’s actions taken or planned to be responsive to recommendations
2, 3, 4, 5, and 6. We consider these recommendations to be resolved but open
until FAA completes all planned actions.

FAA’s response to recommendation 1 (on ASDE-X cost and schedule) only
partially addresses our concerns. FAA stated that it plans to complete several
actions by the end of September 2007. Therefore, we request that FAA update its
response for two specific areas: (1) describe how it finalized cost estimates for the
two remaining significant unpriced contract requirements (i.e., engineering
services and installation) and (2) provide a copy of FAA’s new procedures with
Sensis to correct prohibited and improper contract administration practices.

FAA also needs to provide an ASDE-X master schedule detailing when all
implementation activities and planned capabilities will be commissioned for
operational use. FAA’s master schedule should not count a site as being
commissioned until all planned capabilities (e.g., core and system enhancements)
are fully tested and accepted at a site. The ASDE-X Program Office’s behavior
and lack of transparency on this matter is unacceptable. This is in violation of the
Inspector General Act of 1978. Accordingly, we are asking the Acting
Administrator to take steps to prevent a reoccurrence of this problem.

In accordance with Department of Transportation Order 8000.1, please provide us
with this additional information within 30 days. If you have any questions
regarding this report, please contact me at (202) 366-1427 or Kevin Dorsey,
Program Director, at (202) 366-1518.



                                         #



cc: FAA Chief of Staff
    Acting Director of Terminal Program Operations
    Anthony Williams, ABU-100




                                        xiii
                               TABLE OF CONTENTS

FINDINGS .............................................................................................. 1
    FAA Needs To Improve ASDE-X Management Controls
    To Reduce the Risks of Further Cost Growth and
    Schedule Delays ............................................................................... 1
    FAA Needs To Resolve Operational Issues Associated
    With Key ASDE-X Safety Capabilities To Reduce the
    Risks of Ground Collisions ................................................................ 7
    FAA Needs To Work With Airlines and Airport Officials
    To Address Safety Risks That Were Not Considered in
    the ASDE-X Program Re-Baseline but Are Vital to
    Reducing the Risks of Pilots and Vehicle Operator
    Errors ............................................................................................... 12

RECOMMENDATIONS........................................................................ 16

AGENCY COMMENTS AND OIG RESPONSE .................................. 17

EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY................................................................................. 21

EXHIBIT B. ASDE-X PROGRAM COST VARIANCES...................... 22

EXHIBIT C. OIG JUNE 2006 MANAGEMENT ADVISORY ............... 23

EXHIBIT D. ASDE-X WATERFALL SCHEDULE (AS OF
AUGUST 14, 2006) .............................................................................. 26

APPENDIX. AGENCY COMMENTS................................................... 27
                                                                                   1




FINDINGS
We found that the ASDE-X program is at risk for further cost growth and schedule
slips and may not achieve all planned safety benefits. To achieve ASDE-X
program goals and effectively manage the program, FAA needs to (1) improve
program management controls to reduce the risks of further cost growth and
schedule delays; (2) resolve operational performance issues with key ASDE-X
safety capabilities planned to reduce the risk of ground collisions on intersecting
runways and taxiways, including during inclement weather; and (3) work with
airlines and airport officials to provide safety enhancements that were not included
in the ASDE-X program re-baseline but are vital to reducing the risks of ground
collisions caused by pilot and vehicle operator errors.


FAA Needs To Improve ASDE-X Management Controls To Reduce the
Risks of Further Cost Growth and Schedule Delays
As of July 2007, FAA had expended about $314 million (57 percent) and
obligated about $378 million (69 percent) of the planned funding but had only
deployed 9 of 35 systems for operational use. FAA is now challenged with
implementing the 26 remaining ASDE-X systems at the more complex airports
with less than half of the planned funds remaining. Although FAA has initiated
work to implement some of the remaining systems, we remain concerned because
until FAA develops realistic cost estimates and schedule goals and establishes
better contract administration practices, it will be difficult to determine if ASDE-X
is cost effective.

FAA’s JRC approved re-baselined ASDE-X cost estimates in September 2005;
yet, just 1 year later, ASDE-X program officials increased cost estimates by
$94 million for six activities essential to acquiring and implementing ASDE-X
(see table 2 on page 2). These costs increased for two main reasons: (1) FAA
underestimated the cost for its hardware and software requirements for the new
airports scheduled to receive ASDE-X and (2) FAA has not completely addressed
improper contract administration practices that we advised the Agency of in June
2006. Also, since the JRC re-baseline, FAA has not met ASDE-X schedule goals
and was not able to commission all systems planned for FY 2006.


FAA Needs To Improve ASDE-X Management Controls by Developing
Realistic Cost Estimates
Our analysis of FAA’s revised cost estimates for ASDE-X found that the Agency
underestimated ASDE-X costs for hardware and software for the new airports
scheduled to receive ASDE-X. This can be attributed to FAA’s failure to


Findings
                                                                                                2


complete site surveys to obtain precise requirements for ASDE-X equipment
needs for all new airports and FAA’s need to continue developing and deploying
additional software to meet ASDE-X requirements. For example, through
November 2006, FAA had deployed 12 software builds to the 8 operational sites.
By July 2007, FAA completed testing of its latest software build to address safety
alert capabilities for intersecting runways, and inclement weather. However, FAA
needs to resolve a number of operational performance issues associated with the
software that will likely require more software development and additional costs.

FAA has also established an agreement with Sensis to begin developing and
testing another ASDE-X software build, which allows ASDE-X technology to be
used at airports with a precision runway monitoring capability. According to
Sensis, a new national baseline will be established once this new software baseline
is complete. FAA had completed negotiations and approved cost estimates with
Sensis for this capability by June 2007. However, according to FAA, future
requirements for precision runway monitoring are under review.

          Table 2. ASDE-X Cost Estimates for Six Activities
                                     (Dollars in Millions)
     Cost Element             Planned Cost            Current Cost            Cost Growth
                                 Estimate               Estimate
                            (as of Sept. 2005)      (as of Dec. 2006)
 Procurement/                         $142.95                 $179.74                  $36.79
 Production
 Program Management                      $93.47                $120.10                 $26.63
 Software Design and                     $38.49                 $58.82                 $20.33
 Development
 Logistics Support                       $11.00                 $18.34                  $7.34
 Second-Level                             $5.50                  $7.90                  $2.40
 Engineering
 Test and Evaluation                      $5.50                  $6.23                  $0.73
   Total                                $296.91                $391.13                 $94.22
Source: OIG analysis of ASDE-X basis of estimates and ASDE-X updated costs estimates

Our review also found that even though the cost estimates for the six activities
now exceed their planned life-cycle estimates by $94 million, the Agency
continues to estimate that total ASDE-X program costs will not exceed
$549.8 million. The largest cost growth occurred in procurement and production
(about $37 million), program management (about $27 million), and software
design and development (about $20 million). While FAA attempted to offset the
cost growth by decreasing other activities required to complete ASDE-X
implementation, we found that for one activity, installation, there is significant
disagreement between what FAA estimates the total cost will be and what the
prime contractor estimates. FAA estimates the cost to install ASDE-X equipment

Findings
                                                                                3


at the remaining sites at $44 million, while Sensis estimates it at $64 million—a
$20 million difference.

We also found that ASDE-X program officials decreased telecommunications cost
estimates from $16.5 million to $8.5 million to remain within ASDE-X program
baseline costs. However, ASDE-X program officials later reported that the
telecommunications costs were actually one to two times higher than the original
estimates, which could increase the costs to at least $33 million or up to
$49.5 million. Therefore, we question how realistic FAA’s total program costs are
for ASDE-X and recommend that FAA develop realistic cost estimates for all
ASDE-X implementation activities through program completion.


FAA Needs To Correct Identified Prohibited and Improper Contract
Administration Practices
Our June 2006 management advisory to FAA points to some possible causes for
FAA’s ineffective management of the ASDE-X program. We identified
prohibited and improper contract administration practices on the ASDE-X prime
contract, including the lack of contract terms and conditions. We found that FAA
(1) increased contractor fees based on costs incurred instead of the negotiated
fixed-fee dollar amounts, (2) made payments to the contractor before the
completion of meaningful work on fixed-price items, and (3) did not adequately
document contract changes.

In August 2006, FAA responded to our management advisory. With respect to our
first concern that the ASDE-X contract has been administered as a cost-plus-a-
percentage-of-cost contract, FAA disagreed with our position. FAA stated that the
statute prohibiting cost-plus-a-percentage-of-cost contracts does not apply but
concluded that its Acquisition Management System (AMS) does prohibit use of
this type of contract. We continue to believe that FAA is in violation of its AMS
policy. For example, based on our review of ASDE-X invoices, despite numerous
program changes to installation, the contractor bills and collects a fee that is a
percentage of costs incurred. With regard to points 2 and 3, FAA indicated that it
would begin taking corrective action to address our concerns. We continue to
view these areas as major watch items that require FAA’s attention.

Risks for further cost growth exist within ASDE-X cost elements, thus
increasing the program’s overall risk.          FAA pays two of the three
implementation activities that experienced the largest growth—Software Design
and Development and Program Management—on a cost-plus-fixed-fee basis. In
the 2006 management advisory, we expressed concern that the way in which
ASDE-X program officials awarded fees for system enhancements (software
design and development) based on costs incurred rather than negotiated fixed-fee


Findings
                                                                                 4


dollar amounts encouraged rather than discouraged cost growth. Because FAA
has questionable contract practices, has not formalized a final agreement with the
prime contractor for these activities, and does not compare actual contract funding
to the current estimates, we are concerned that ASDE-X cost elements paid on a
cost-plus-fee basis do not have credible estimates.

Procurement and Production estimates are also at risk for further increases because
FAA has not conducted site surveys to determine precise requirements for
ASDE-X equipment at all of the airports now on the deployment waterfall
schedule. While FAA pays for Procurement and Production on a fixed-price basis,
estimates have grown by $37 million since the last program re-baseline decision.
Prior to September 2005, FAA had already given the prime contractor all the funds
to produce systems for the previously planned sites. However, the JRC re-baseline
decision changed both the airport and the equipment requirements for ASDE-X
program, thus increasing the demand for Procurement and Production funding.

Since FAA plans to deploy ASDE-X to more complex airports (i.e., those with
more runways; more traffic; and multiple, intersecting runways), it will need to
consider the impact on cost estimates. For example, more complex airports such
as Chicago O’Hare demand more equipment (such as multiple antennae and
radars) to ensure that ASDE-X can track aircraft and vehicle targets on the airport
surface. Until site surveys at all airports are done and precise requirements are
established, the program is at risk for further cost growth and schedule delays due
to unforeseen requirements.


FAA Needs To Address Schedule Delays by Developing Realistic
Schedule Goals and a Master Schedule Through ASDE-X Completion
We found that ASDE-X program officials need a realistic master schedule through
ASDE-X completion to effectively plan and manage ASDE-X implementation and
avoid further schedule delays. Since the JRC re-baselined the program in 2005,
FAA has not been able to meet ASDE-X schedule goals. For example, FAA did
not achieve its schedule goals for FY 2006—only four of seven planned ASDE-X
systems were commissioned for operational use. We found that FAA failed to
commission ASDE-X for operational use at Louisville, Charlotte-Douglas, and
Washington-Dulles International Airports because it did not resolve testing
deficiencies at one airport, installed equipment but did not initiate testing at
another airport, and never installed the equipment that was delivered to another
airport. FAA has since revised the schedule for the three sites and reported July
2007, August 2007, and July 2008 initial operational dates for those airports,
respectively, but did not report when the systems will be commissioned for
operational use.



Findings
                                                                                   5


We also found that schedule delays can be attributed to challenges FAA faced
during its first attempts to combine ASDE-X technology with ASDE-3 radars. For
example,

 • In April 2005, FAA experienced problems with false alerts at Louisville
   International Airport when it interfaced the newer ASDE-X technologies with
   ASDE-3 radar. As a result, FAA decided to delay ASDE-X deployment at
   airports continuing to use these radars until a solution was identified, which
   further complicated the ASDE-X implementation schedule.

   Two of the three overdue sites (Louisville and Charlotte-Douglas) that were
   planned for commissioning in FY 2006 but delayed until FY 2007 cause
   concern about FAA’s ability to execute the remainder of the ASDE-X
   program. Although FAA delivered ASDE-X equipment to these airports in
   early 2004, it took until July 2007 before FAA could establish full operational
   status at Louisville, and Charlotte is still pending commissioning. In
   November 2004, FAA’s testing of the combined system in Louisville resulted
   in the identification of 31 deficiencies that constituted a serious risk to the
   operational deployment of the ASDE-X/ASDE-3 system. In early March
   2005, FAA still found serious deficiencies. After yet another test on
   March 31, 2005, FAA found that the combined system still generated more
   false alerts than the ASDE-3 radar had using the existing system, AMASS.

 • Also, the ASDE-X system had problems with “stealing” the identification tags
   of the targets shown on controller displays. With an incorrect tag, a controller
   could misidentify an aircraft or issue a warning or an instruction to the wrong
   aircraft, thereby creating greater risk of a ground collision. We are concerned
   because the current ASDE-X baseline calls for FAA to deploy ASDE-X to
   21 airports that will continue to use ASDE-3 radars. While FAA’s efforts to
   address these problems have shown progress by FAA commissioning the
   Louisville system in July 2007, it is too early to conclude whether ASDE-X
   can meet the unique needs of each airport scheduled to receive the system.

Moreover, FAA’s plans to expedite ASDE-X deployment at Chicago O’Hare
airport from 2009 to 2007 further highlight the need for the Agency to develop a
master ASDE-X schedule through the program completion. According to FAA,
refocusing resources on a single site could cause a domino effect on the waterfall
schedule and may impact FAA’s schedule goals for 2007. For example, ASDE-X
program officials reported that plans to begin upgrading previously commissioned
sites with new software to address the safety risks at those airports could slip from
2007 to later years. ASDE-X program officials also reported that because
resources have been shifted to Chicago, FAA may not be able to complete full
system deployment by 2011.


Findings
                                                                                 6


We also found that because ASDE-X program officials continue to modify
ASDE-X schedule goals, the true ASDE-X completion date remains unclear. In
September 2005, FAA identified ASDE-X schedule goals for ordering,
constructing, and installing systems along with the operational readiness date for
all 35 ASDE-X airports approved by the JRC. In August 2006, however, FAA
released an updated ASDE-X schedule and made significant changes to its
schedule goals. This updated schedule no longer reported commissioning dates
for ASDE-X sites.

FAA also reported different commissioning dates for the ASDE-X system
deployed at Orlando International Airport. For example, FAA originally reported
that Orlando was commissioned for operational use in September 2004 but later
reported a January 2006 commissioning date. These variations in commissioning
dates underscore the need for FAA to develop a realistic master schedule with firm
dates indicating when ASDE-X will be implemented.

To address ASDE-X schedule uncertainty, FAA needs to develop a master
schedule through program completion. The schedule should detail when all
activities and planned capabilities associated with commissioning ASDE-X for
operational use will be completed for each airport. These activities should include
completion dates for procurement and production, equipment installation, software
development and deployment, program management support, test and evaluation
activities, system optimization, initial operational capability, and commissioning.
These activities normally require long lead-times for FAA and Sensis to
effectively plan and schedule the resources to complete them; however, according
to Sensis officials, FAA only schedules work for them on an annual basis.
Therefore, FAA needs to establish a master schedule with Sensis through ASDE-X
completion that outlines when all implementation activities and planned
capabilities will be commissioned for operational use.


FAA Needs To Establish a Stronger Performance Management Tool To
Monitor and Track ASDE-X Cost and Schedule Goals
To address these cost and schedule uncertainties, FAA needs to establish a
mechanism to monitor planned and actual costs and schedules for all major
activities associated with implementing ASDE-X, as required by its own
Acquisition Management System policy. For example, it was not until January
2007 that FAA requested Sensis to provide estimated costs to complete production
and procurement, software development, and program management activities
through the end of the program, just to name a few activities. FAA needs to
implement a stronger performance management tool, such as earned value
management, to provide FAA with current and integrated cost, schedule, and
technical performance information and reliably forecast future performance. Also,


Findings
                                                                                 7


by implementing earned value management for ASDE-X, FAA decision makers
could more effectively track and monitor cost, schedule, and performance goals.


FAA Needs To Resolve Operational Issues Associated With Key
ASDE-X Safety Capabilities To Reduce the Risks of Ground Collisions
The ASDE-X program is at risk of not achieving all of its planned safety benefits.
Although the Louisville ASDE-X system provides key safety capabilities required
to reduce the risks of ground collisions on intersecting runways and converging
taxiways, under certain circumstances the system does not generate timely alerts
for controllers to take appropriate action. FAA also needs to resolve operational
problems associated with heavy rain that cause ASDE-X to be susceptible to
dropped targets and subsequent system outages before commissioning this
capability for operational use at other airports.

The intent of the ASDE-X acquisition was to procure a first-article or “core”
system that focused on surveillance capabilities only. The system has the ability
to process multiple radar sources, transponder-equipped aircraft and vehicle
information, and ADS-B sensor data to positively identify aircraft and vehicles
operating on the airport surface to air traffic controllers. After operational
acceptance of the core system, the acquisition would continue with system
enhancements. These system enhancements include the ability for ASDE-X to
operate dual primary radars, remote primary radar tower installation, an interface
with the ASDE-3 radar, and development of ASDE-X safety logic.

ASDE-X safety logic is a software enhancement to the ASDE-X core system that
predicts the path of aircraft landing or departing and vehicular movements on
runways. Visual and auditory alerts are activated when the safety logic projects a
potential collision. FAA plans to deploy ASDE-X safety logic software primarily
in three successive builds.

 • The first build will provide safety alert capability for aircraft or vehicles in
   collision situations on a single runway.
 • The second build will provide alerts for intersecting runways and converging
   taxiways and during heavy rain storms.
 • The third build will provide alerts for more complex runway and taxiway
   operations. Figure 1 shows possible collision situations in which this
   technology would be helpful on single and intersecting runways.




Findings
                                                                                    8


  Figure 1. Example of a Potential Collision Situation for Single
                  and Intersecting Runways




            Source: ASDE-X Safety Logic specification


FAA completed the first build and began commissioning it for operational use at
ASDE-X airports. Additionally, in July 2007, FAA began commissioning the
second build item for operational use in Louisville—key ASDE-X safety alert
capabilities to reduce the risks of ground collisions on intersecting runways and
converging taxiways. It is important for FAA to implement these capabilities as
soon as possible to reduce the risks of collisions and near collisions on intersecting
runways and taxiways, such as those that occurred at Milwaukee General Mitchell,
Chicago O’Hare, and Boston Logan International Airports (these incidents are
discussed below). However FAA must still resolve operational performance
issues associated with these capabilities.

FAA Needs To Resolve Problems With ASDE-X Providing Untimely Alerts
To Warn Controllers of Potential Collisions on Intersecting Runways and
Converging Taxiways
There are 22 airports with intersecting runways scheduled to receive ASDE-X.
FAA has already deployed ASDE-X at six airports with intersecting runways or
converging taxiways. However, the Louisville system is the first to be
commissioned with the safety alert capability that will warn controllers of
potential collisions on intersecting runway and converging taxiways. Recent
collisions and near collisions between aircraft on intersecting runways and
converging taxiways highlight the need for FAA to address these serious safety
risks. For example:

 • On June 9, 2005, a controller mistakenly cleared two commercial aircraft at
   Boston Logan (an Airbus 330 and a Boeing 737) to depart on intersecting
   runways. As the Airbus lifted off the ground, the Boeing pilot saw the
   potential hazard and kept his aircraft on the ground to avoid a collision;
   however, the 2 aircraft came within 171 feet of each other.


Findings
                                                                                    9


 • On March 21, 2006, a controller mistakenly cleared two commercial aircraft at
   Chicago O’Hare (an Airbus 319 and an Embraer E145) for takeoff on
   intersecting runways. Another controller spotted the error and ordered both
   aircraft to abort their take-off rolls. Before stopping, however, the 2 aircraft
   came within 100 feet of each other at the runway intersection.
 • On January 24, 2007, a controller mistakenly cleared two cargo aircraft at
   Milwaukee General Mitchell (a Beech BE99 and a Cessna 402-B) to taxi on
   converging taxiways, causing the two aircraft to collide. Both airplanes
   sustained substantial damage. The pilot of the Beech suffered minor injuries,
   and the pilot of the Cessna was not injured.

By July 2007, FAA completed testing of an ASDE-X software build at Louisville
International Airport that has the safety alert capability to warn controllers of
potential collisions on converging taxiways and intersecting runways. According
to the May 27, 2007, IOT&E report, FAA conducted 23 flight tests representing a
wide range of safety alert situations, with emphasis on intersecting runways.
While ASDE-X provided timely alerts for most of the test scenarios, the IOT&E
team raised concern that under certain circumstances, intersecting alerts involving
taxiing aircraft may not provide sufficient time for controllers to take appropriate
action. The team observed two scenarios where ASDE-X alerts were considered
to be too slow. The first involved an aircraft on final arrival to a runway while
another aircraft was taxiing on an intersecting runway. The other involved an
aircraft that landed on one runway as another aircraft was taxiing onto a runway
toward the intersection of the runway where the other aircraft had landed. FAA
needs to take corrective actions to address ASDE-X system limitations pertaining
to taxiing aircraft alert timeliness.

According to FAA officials at Louisville, the new ASDE-X software did alert
controllers of potential collisions on intersecting runways during an initial test of
the system. FAA commissioned the system with these capabilities after
addressing a number of technical problems such as unscheduled outages; there
were a total of 44 maintenance actions that needed to be addressed. To address the
problems, FAA updated ASDE-3 radar with a new software build that it believes
should resolve the problems that were contributing to the system outages. Also,
Louisville officials did not test the safety alert capability for converging taxiways.
While FAA’s efforts to address these problems have shown progress at Louisville,
it is too early to conclude whether ASDE-X can meet the unique needs of each
airport scheduled to receive the system.




Findings
                                                                                     10


During Periods of Heavy Rain, ASDE-X Is Susceptible To Dropping
Targets and Experiencing System Outages
A key capability shortfall of AMASS that ASDE-X was supposed to address
involved improving airport safety by operating in all-weather conditions.
Although ASDE-X was designed to perform better than AMASS in inclement
weather by suppressing false alerts, it has had similar problems. Like AMASS,
the ASDE-X primary radar has not been able to accurately identify targets on the
airport surface during moderate to heavy rain storms; when this occurs, the system
generates false alerts.

FAA designated Orlando International Airport as its operational facility to test a
new ASDE-X software build that Sensis developed to address this problem. FAA
completed the upgrade at Orlando and issued policy on June 1, 2007, governing
ASDE-X usage during moderate to extreme precipitation. The new software build
upgrades the ASDE-X radar system with a “rain configuration” to avoid false
alerts during heavy rain. According to FAA, when this configuration is selected, it
allows full-core alerting capabilities.

While we commend FAA’s progress, we have concerns because (1) the ASDE-X
upgraded system is still susceptible to dropped targets (i.e., “missing” real targets)
and system outages and continues to generate false alerts and (2) FAA did not test
the new capability with intersecting runways or ASDE-3 radar, which are present
at the majority of the ASDE-X airports that will receive this upgrade. Therefore,
FAA needs to properly test the new rain configuration capability as it is being
implemented to ensure that it meets the unique needs of all 35 ASDE-X airports.

The ASDE-X rain configuration capability is susceptible to dropping targets
and experiencing system outages during periods of heavy rain. FAA issued its
new policy after concluding that, with the newly tested rain configuration, ASDE-
X is now capable of suppressing excessive rain-generated false targets and
preventing false alerts from occurring. However, FAA based this decision on its
testing period at Orlando, during which only 20 hours worth of data were
collected. In our opinion, this amount of data cannot fully indicate the new
upgrade capabilities. Also, Orlando officials told us that even when ASDE-X
operates with the rain configuration, it is still capable of missing real targets on the
airport surface and displaying false targets. They also stated that if the new
capability is operational the majority of the time, a certain level of risk is
acceptable. We believe that to address safety risks the system needs to be fully
operational.

We also note that FAA’s IOT&E Assessment Report for the “ASDE-X Upgrade,”
dated May 25, 2007, concluded that ASDE-X is susceptible to target loss and
system outages during periods of heavy rain. These problems occurred because


Findings
                                                                                11


the radar interface unit and video detection malfunctioned during periods of heavy
rain, and this caused the video levels to go below the threshold, resulting in
dropped targets and system outages. Upon system restoration, not all aircraft were
displayed. The operational impact of ASDE-X missing targets decreases the
system’s ability to provide data on the condition of the runways for aircraft and
vehicle operations and decreases the system’s ability to generate alerts, which
could result in a collision. In addition, it reduces controllers’ confidence in the
reliability of the system.

The IOT&E team rated this as a “High Risk” area and recommended that heavy
precipitation causing dropped targets and system outages should be resolved
before ASDE-X operational readiness declaration at Louisville and initial
operational capability at subsequent ASDE-3/AMASS sites. Additionally, to fully
achieve the safety benefits of the ASDE-X Upgrade system, the IOT&E team also
recommended that enhancements continue to be implemented to maximize system
usage in heavy precipitation. We agree that FAA should resolve this problem
prior to deploying the system at other airports.

To address false targets, FAA also issued policy that allows controllers to
temporarily “drop” or remove ASDE-X false targets from their displays and from
the safety logic processing after they have positively verified, either through
pilot/vehicle operator position reports or visual observation, that the target is
indeed false. We are concerned about the timeliness of verifying false targets in
this way and the ability of controllers to accurately do so while managing air
traffic.

FAA’s testing for the rain configuration software upgrade did not consider
requirements at other ASDE-X airports. The Orlando airport differs from the
majority of the other ASDE-X airports in that it has no intersecting runways and
does not use ASDE-3 radar input. We are concerned because:

 • Although FAA’s policy states that the ASDE-X rain configuration software
   upgrade provides full-core alerting capability, FAA never tested it with
   intersecting runways or ASDE-3 radar. Therefore, implementation processes
   that worked with Orlando may not be easily transferable to other sites. We are
   concerned because 22 of the 35 airports planned to receive ASDE-X have
   intersecting runways, and 21 of the 35 will retain their ASDE-3 radar.
   Integration of new upgrades with these radar should be thoroughly tested since
   a key problem with AMASS’s inability to operate during heavy rain storms
   was ASDE-3 radars causing false alerts.
 • Each airport will be required to set site-specific parameters for determining
   when safety alerts should be generated for ASDE-X rain configuration because
   precipitation behaves differently depending on the location. Because each


Findings
                                                                                                              12


   airport has a unique layout and other requirements, this will take time and
   could further impact the waterfall schedule.


FAA Needs To Work With Airlines and Airport Officials To Address
Safety Risks That Were Not Considered in the ASDE-X Program
Re-Baseline but Are Vital to Reducing the Risks of Pilots and Vehicle
Operator Errors
Although ASDE-X is intended to provide direct alerts to air traffic controllers to
warn of potential ground collisions, it does not address similar safety risks caused
by pilot or vehicle operator errors—even though these types of errors caused about
70 percent of the runway incursions over the last 3 fiscal years (see figure 2). To
reduce the risks of ground collisions and maximize ASDE-X capabilities, FAA
needs to (1) determine whether ASDE-X can be used with other planned
technologies to directly alert pilots to potential ground collisions and (2)
encourage airport officials to equip vehicles with transponders so that controllers
can positively identify vehicles operating on the airport surface.

      Figure 2. Three-Year Comparison of Runway Incursions
                         by Incident Type


    200                                                                                       190
    180                   171                              168
    160
    140
    120                                            105
                  97
    100                                                                               89
                           PD                               PD                                 PD
     80
                                     56                            53                                    51
     60          OE                                OE                                OE
     40                          VPD                               VPD                                VPD
     20
      0
                        FY 2004                          FY 2005                            FY 2006
                       (Total 324)                      (Total 326)                        (Total 330)

                      Operational Errors      Pilot Deviations        Vehicle/Pedestrian Deviations

  Source: FAA Runway Safety Office: FY 2004-FY 2006 runway incursion data
  Note:   Operational Errors (OE) are runway incursions caused by air traffic controllers.
          Pilot Deviations (PD) are runway incursions caused by pilots.
          Vehicle/Pedestrian Deviations (VPD) are runway incursions caused by vehicle operators and pedestrians.




Findings
                                                                                     13


The ASDE-X System Does Not Provide Direct Alerts to Pilots, Which Has
Been a Longstanding NTSB Recommendation
FAA designed ASDE-X in response to the NTSB recommendation to require
ground movement safety systems at airports to provide direct warnings to flight
crews. However, in November 2006, the NTSB reported that ASDE-X is an
unacceptable response to its longstanding (6 years) safety recommendation
because it does not provide direct warnings of potential ground collisions to flight
crews.

Providing warnings directly to flight crews is a potentially significant tool to
prevent runway incursions, since over 54 percent were caused by pilot error over
the last 3 years. Pilots are subject to physical limitations that restrict visibility of
the airport surface, including cockpit/vehicle line-of-sight restrictions. Pilots also
rely on radio communications with controllers as a primary means of receiving
airport surface movement instructions.                Misinterpretation of these
communications, which is a common occurrence, can lead to deviations from the
stated instructions.

As we reported in the past, technologies to help pilots know their and others’
locations on the runway, such as in-cockpit moving map displays and ADS-B,
must be expedited to avoid close calls that continue to pose serious safety risks to
airline crews and passengers. In March 2007, FAA took the first step to assist
pilots by announcing plans to expedite the certification and use of in-cockpit
moving map displays to show pilots their actual position and movement on the
airport surface. However, moving map displays alone do not provide pilots with
the capability of seeing the intent of other aircraft movement on the airport surface
nor do they provide the shared situational awareness between pilots and
controllers.

In August 2007, FAA also took important steps by awarding a contract for the
development and installation of the ground infrastructure for ASD-B. When
displayed in the cockpit, ADS-B information can provide a “second set of eyes”
by including the pilot in the loop to detect and alleviate hazardous surface
situations. However, FAA plans to mandate “ADS-B Out” where aircraft will
broadcast their position to ground systems. FAA does not intend mandate the use
of “ADS-B In” and the use of cockpit displays but hopes the industry will
voluntarily equip with the technology.

Over the next several years, FAA plans to work with the United Parcel Service at
Louisville to develop air-to-air and surface applications for ADS-B In and cockpit
displays. FAA plans to integrate the use of ADS-B, cockpit displays, and ASDE-
X. This presents FAA with a unique opportunity to determine whether these three
technologies can be combined to simultaneously alert controllers and pilots of


Findings
                                                                                  14


potential ground collisions. FAA should then determine the cost and timeline for
implementing this capability at all ASDE-X airports.

One key to reducing accidents caused by runway incursions is to provide “Shared
Situational Awareness,” where both the pilot and controller are viewing a common
picture simultaneously while interacting with the data. FAA has identified ADS-B
technology as the surveillance solution that can meet these needs by providing
critical flight information simultaneously to pilots and air traffic controllers.
ADS-B transmits air traffic and flight information to aircraft, vehicles, and ground
stations to improve situational awareness and provides an unprecedented level of
service both to the cockpit and air traffic control facilities. While ASDE-X as
currently designed has the capability to receive and transmit ADS-B information
to air traffic controllers and is intended to provide direct alerts to controllers of
potential ground collisions, it does not provide a similar capability to pilots.

FAA plans to deploy ASDE-X and ADS-B in Louisville, Kentucky, in 2007.
Therefore, FAA should determine whether ASDE-X, ADS-B, and in-cockpit
moving maps technologies can be used to provide direct alerts to controllers and
pilots simultaneously to reduce the risks of ground collisions caused by pilot
errors. FAA should then determine the cost and timeline for implementing this
capability at all ASDE-X airports.


Airports Scheduled To Receive ASDE-X Must Equip Their Vehicles With
Transponders To Maximize ASDE-X Capabilities
The ASDE-X system is designed to reduce the risks of ground collisions caused
by vehicle operators by providing positive identification of vehicles operating on
the airport surface. However, airport vehicles must be equipped with transponders
for ASDE-X to provide this key safety feature; otherwise, the system cannot
positively identify vehicles.

Of the 9 airports (out of the 35 planned) that have received ASDE-X, the 2 we
visited (Milwaukee and Orlando) had their vehicles equipped with transponders.
We were informed that ASDE-X funds were used to pay for the transponders at
these airports because they were both key test sites for ASDE-X. FAA paid
$3,000 per vehicle to equip a fleet of 78 vehicles at General Mitchell International
airport in Milwaukee Wisconsin.

It is important for FAA to encourage airport officials to equip vehicles with
transponders because about 16 percent of the runway incursions were caused by
vehicle operators, which poses a serious safety risk.         For example, on
February 2, 2007, at Denver International Airport, a commercial aircraft (a Boeing
737) that had just landed nearly collided with a snow plow, after the plow driver


Findings
                                                                                  15


crossed a runway without clearance from air traffic control or airport operations
directly in front of the aircraft. According to the flight crew, they had to use
“significant” reverse thrust and brakes to halt the aircraft on the runway.

Until airport vehicles are equipped with transponders, controllers will be limited in
their use of ASDE-X because they will not be able to positively identify vehicles
operating on the airport surface. Therefore, FAA should work with airports to
aggressively promote equipping their vehicles with transponders as a vital step in
reducing the risks of ground collisions caused by vehicle operator error.




Findings
                                                                                 16




RECOMMENDATIONS
To improve ASDE-X management controls and reduce the risks of further cost
growth, schedule delays, and potential ground collisions, we are recommending
that FAA:

 1. Develop (a) realistic cost estimates for all activities required to complete
    ASDE-X implementation and (b) a master schedule through ASDE-X
    completion that outlines when all implementation activities and planned
    capabilities will be commissioned for operational use.

 2. Correct prohibitive and improper contract administration procedures by (a)
    discontinuing the practice of increasing contractor fees based on costs
    incurred rather than negotiated fixed-fee dollar amounts, (b) discontinuing
    the practice of making payments before meaningful work has been completed
    on fixed-price items, and (c) adequately documenting any contract changes.

 3. Implement a comprehensive earned value management tool to monitor and
    track ASDE-X cost, schedule, and performance goals.

 4. Resolve operational performance issues identified during system testing
    before implementing key ASDE-X safety capabilities at other airports by (a)
    addressing timeliness of safety alert capabilities for intersecting runways and
    fully testing converging taxiways capability, (b) addressing problems with
    dropped targets and subsequent system outages during heavy rain storms, and
    (c) testing rain configuration software upgrades at airports with ASDE-3
    radars and intersecting runways and taxiways.

 5. Determine (a) the feasibility of combining ASDE-X, ADS-B, and in-cockpit
    moving maps technologies to simultaneously provide controllers and pilots
    with direct alerts to warn them of potential ground collisions and (b) the costs
    and timeline for implementing this capability at all ASDE-X airports.

 6. Work with airports to aggressively promote equipping their vehicles with
    transponders to maximize ASDE-X capabilities as a vital step in reducing the
    risks of ground collisions caused by vehicle operator error.




Recommendations
                                                                                 17




AGENCY COMMENTS AND OIG RESPONSE
On September 25, 2007, FAA provided comments (see appendix) to our
August 6, 2007, draft report. FAA concurred with all six recommendations.
When successfully implemented, FAA’s completed or planned actions will meet
the intent of all but recommendation 1.

Recommendation 1:            FAA concurred with our recommendation.            FAA
acknowledged that it has yet to complete negotiations with Sensis to obtain
supportable contract cost estimates. FAA responded that the ASDE-X contracting
officer planned to complete negotiations with Sensis to finalize cost estimates for
the two remaining significant unpriced contract requirements (i.e., engineering
services and installation) by the end of September 2007. FAA also acknowledged
the importance of establishing a quantitatively supportable contract cost estimate
for all activities required to enable ASDE-X commissioning. FAA indicated that
baselining this estimate, as a function of a contractual requirement, is critical to
evaluating the program’s cost and schedule goal attainment.

FAA commented that the ASDE-X program’s baseline cost estimates have
remained consistent with the September 2005 re-baseline. However, we question
how FAA can arrive at this conclusion given the fact that the Agency
acknowledges in its response that it has yet to complete negotiations with Sensis to
obtain supportable contract cost estimates. FAA also acknowledges that it has yet
to establish a mechanism such as EVM to track and monitor ASDE-X cost. We
repeatedly requested ASDE-X program officials and cost analysts to provide us
with cost estimates so we could verify ASDE-X original and actual costs. We
either received conflicting cost information or were informed that the costs had
changed for some implementation activities and that details did not exist to break
out the costs for ASDE-X implementation activities. Finally, these estimates were
released by FAA after we issued our draft report; therefore, we could not verify
the accuracy of these estimates.

Also at issue is our assessment that cost estimates for six activities now exceed
their planned life-cycle estimates by $94 million. FAA stated that our conclusion
is based on the re-baselined Life Cycle Cost Estimate that only includes data for
fiscal years 2006-2030, not the distribution of costs in the original baseline. We
disagree with FAA and question its disregard for our assessment for the following
reasons.

To calculate the distribution of the original cost, we used data depicting the
percentage of cost for each ASDE-X implementation activity from FAA’s Life
Cycle Cost Estimate document. We considered this data to represent the total life-
cycle cost estimate of $549.8 million, which was approved for the re-baseline


Agency Comments and OIG Response
                                                                                18


decision in September 2005. The data does not reference fiscal years 2006-2030
as the scope period of the work. We briefed FAA on our preliminary findings
during the final stages of our review, and the Agency never took issue with our
conclusions. For example, in February 2007, we briefed ASDE-X senior officials
on our cost growth assessment and informed them that we used FAA data from its
Life Cycle Cost Estimate document—the FAA officials did not disagree with our
finding at the time. Moreover, in April 2007—prior to our May 2007 testimony
before Congress on ASDE-X cost, schedule, and performance risks—we again
provided ASDE-X senior officials with a briefing that highlighted details of our
conclusion about the $94 million cost growth. Again, FAA did not provide any
comments questioning the accuracy or validity of our conclusions.

FAA did not dispute our conclusions about potential costs growth with ASDE-X
installation and telecommunications activities. The Agency responded that
wherever possible, it is trying to reduce telecommunications costs by using
alternatives to the FAA Telecommunications Infrastructure, such as tying into
existing FAA-owned communications lines. As for equipment installation, FAA
stated that costs have been reduced by streamlining activities. However, FAA
needs to complete negotiations with the ASDE-X contractor to finalize the
installation cost. Until it does so, the ASDE-X program baseline remains at risk
for potential cost growth.

In response to our recommendation that FAA develop a master schedule that
clearly details when all ASDE-X systems will be fully implemented for
operational use, the Agency stated that the Program Office is using a “master
integrated working schedule” to track deployment activities. Despite repeated
requests during our review for a master schedule, the Program Office did not
provide our office with this information. Instead, the Program Office only
provided us with a waterfall schedule. This is an incomplete document because it
lacks details regarding when all implementation activities and planned capabilities
associated with commissioning ASDE-X for operational use will be completed for
each airport.

FAA officials stated that they did not provide the Office of Inspector General with
the master schedule because it is an internal document that is not released outside
of the Agency. The ASDE-X Program Office’s behavior and lack of transparency
on this matter is unacceptable. This is a violation of the Inspector General Act of
1978. The act authorizes the Inspector General to have access to all records
relating to Federal programs and request such information or assistance as may be
necessary for carrying out its duties and responsibilities. Accordingly, we are
asking the Acting Administrator to take steps to prevent a reoccurrence of this
problem.




Agency Comments and OIG Response
                                                                                 19


FAA’s response continues to show airports that it considers as commissioned,
even though planned system enhancements at those airports are scheduled for a
later date. For example, FAA reported that Providence, Rhode Island; Houston,
Texas; and Seattle, Washington, airports were commissioned in 2005 or 2006.
Yet, the system enhancements are not scheduled for completion until 2008 (see
attachments B and C of FAA’s response). FAA also stated that 11 systems have
been commissioned, but its schedule only shows 6 with current system
enhancements. We continue to believe that a system deployment should not be
counted as commissioned for operational use until all planned ASDE-X
capabilities (e.g., core and system enhancements) are fully tested and accepted at a
site.

Recommendation 2: FAA concurred and stated that the ASDE-X contracting
officer planned to establish new procedures with the ASDE-X contractor and
FAA’s Resident Quality Reliability Officer (QRO) by the end of September 2007
to correct prohibitive and improper contract administration procedures.
Specifically, the contracting officer was to request all contractor milestone
payments for review and concurrence by the FAA QRO. The contractor was to
submit the FAA QRO validation of the milestone event designated quantity as
supporting documentation with the invoice. Additionally, the contracting officer
planned to evaluate the proposed fixed fee to determine its reasonableness. The
contracting officer was to comply with timely documentation of contract changes
via contract modification. These are important steps that FAA must implement to
address concerns raised in our June 2006 management advisory to FAA about the
credibility of the program’s cost estimates.

Recommendation 3: FAA concurred and stated that the Office of Management
and Budget has mandated that all major FAA programs have strong business cases
and are executable within budget. To ensure it meets these requirements, FAA has
committed to the Office of Management and Budget that every major acquisition
program will implement an Earned Value Management System. The ASDE-X
Program Office is working with FAA’s Earned Value Management Council to
implement this system by December 2007.

Recommendation 4: FAA concurred and stated that the ASDE-X program
thoroughly tests every system enhancement before it is implemented at an
operational site. FAA’s response indicates that Development Test and Evaluation
is completed by the vendor to ensure the enhancement meets the requirements and
does not negatively impact other aspects of the system. FAA test personnel
complete Operational Test and Evaluation for the ASDE-X program at FAA’s
William J. Hughes Technical Center. Also, in certain cases, Independent
Operational Test and Evaluation (IOT&E) personnel complete additional testing,
usually when new systems are being introduced into the National Airspace


Agency Comments and OIG Response
                                                                                20


System. IOT&E was conducted on the “base” ASDE-X system, ASDE-X Safety
Logic, and the ASDE-X Upgrade (ASDE-3 Interface.) As part of the ASDE-X
Upgrade IOT&E assessment, the IOT&E team also tested intersecting runways.
Additionally, Factory Acceptance Test, Site Acceptance Test, and Field
Familiarization are performed on each system. We continue to believe that FAA
needs to fully test and resolve any operational performance issues to ensure the
ASDE-X system can meet the unique needs of each airport scheduled to receive
the system over the next 4 years.

Recommendation 5: FAA concurred and stated that it is examining emerging
capabilities, including in-cockpit moving map technologies, to determine the
feasibility of such systems. Honeywell International and Sensis Corporation in
cooperation with FAA recently demonstrated cockpit advisory technology using
the ASDE-X system. The technology detects and communicates potential runway
incursions directly to an aircraft cockpit crew. The demonstration took place at
the FAA’s Interim Contractor Depot Level Support facility at Syracuse Hancock
International Airport and used an ASDE-X test system and a Honeywell test
aircraft. Once the feasibility of this technology is determined, the Agency will
begin to build the business case which will include cost and schedule information.
In addition, FAA recently established the Runway Status Light Program Office for
a new automatic system that conveys runway status directly to pilots and vehicle
operators. A final investment decision on this program is expected in early FY
2008.

Recommendation 6: FAA concurred and stated that with the deployment of
ASDE-X to the field, industry began producing squitters that operated on the 1090
MHz frequency. In the meantime, the FAA adopted the ICAO 978 MHz standard
for the Universal Access Transceiver and instructed airports that vehicle squitters
would have to operate under that frequency as well as the 1090 MHz frequency.
Since there were no commercial squitter products available using the 978 MHz
frequency, the FAA is expediting an interim rule that would allow airports to use
1090 MHz, 20-watt squitter until products are available that transmit in the 978
MHz frequency. To provide initial guidance for the voluntary acquisition and
operation of this equipment in airport vehicles, FAA is planning to publish an
advisory circular in early FY 2008.




Agency Comments and OIG Response
                                                                                 21




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives for this performance audit were to determine (1) whether FAA’s
strategy for deploying ASDE-X for operational use is cost effective, given the
changes in the program’s deployment strategy, and (2) to what extent the ASDE-X
program will reduce the risk of ground collisions or accidents caused by runway
incursions.

To achieve our objectives, we analyzed contract data, budget data, acquisition
documents, cost and schedule projections, and other supporting documentation
from FAA. We also reviewed relevant data from Sensis Corporation, the prime
contractor. We reviewed FAA’s ASDE-X budget and cost estimates and ASDE-X
strategy documents for reasonableness and cost effectiveness. We also examined
FAA expenditure and obligation data for ASDE-X to determine how much has
been spent for the ASDE-X program from its inception to July 2007.

We interviewed key FAA and ASDE-X program officials at FAA Headquarters in
Washington, D.C., including senior FAA executives responsible for Terminal
Program Operations and FAA staff members in organizational units reporting to
these executives. We discussed with these officials whether ASDE-X can meet
overall airport safety needs and to what extent this technology will reduce runway
incursions, ground collisions, or accidents. We interviewed ASDE-X prime
contractor officials at Sensis Corporation to discuss the contract and the status of
the system development, installation, and implementation. In addition, we visited
FAA’s Southern, Central, and Great Lakes Regional Offices to determine the roles
and responsibilities of the regions in the installation, implementation, and
deployment of the ASDE-X system. We visited several air traffic control towers
(St. Louis, Missouri; Milwaukee, Wisconsin; Atlanta, Georgia; Orlando, Florida;
and Washington, D.C). We discussed with these control tower staff the
functionality, reliability, and maintainability of the system. We also had various
discussions to determine the status of ASDE-X’s operational use at the control
towers and whether its use meets airports’ individual safety needs.

We performed our survey and verification work from August 2005 through
January 2007. This work was performed in accordance with generally accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.




Exhibit A. Objectives, Scope, and Methodology
                                                                                                22




EXHIBIT B. ASDE-X PROGRAM COST VARIANCES
                                   (Dollars in Millions)
           Cost Element                   Planned                      Current              Cost
                                       Cost Estimate                Cost Estimate         Variance
                                     (as of Sept. 2005)           (as of Dec. 2006)
Procurement/Production                              142.95                   179.74             36.79
Program Management                                   93.47                   120.10             26.63
Software Design and Development                      38.49                    58.82             20.33
Logistics Support                                    11.00                    18.34              7.34
Second Level Engineering                              5.50                     7.90              2.40
Test and Evaluation                                   5.50                     6.23              0.73
                          Subtotal                  296.91                   391.13             94.22

Disposition                                              60.48                 28.90           -31.58
Construction                                             82.47                 56.85           -25.62
Installation*                                            54.98                 44.11           -10.87
Site survey                                              16.49                  8.17            -8.32
Telecommunications**                                     16.49                  8.49            -8.00
Logistics                                                11.00                  6.13            -4.87
Systems Engineering                                       5.50                  2.74            -2.76
Other                                                     5.50
                             Subtotal                   252.91                155.39           -92.02

Grand Total                                            $549.82              $546.52

Source: OIG analysis of ASDE-X Life Cycle Cost Estimates: September 2005 and current cost estimates

* Sensis submitted FAA cost estimates to complete ASDE-X installation totaling $64 million.
   The $20 million difference between the FAA and Sensis estimates ($64 million versus $44 million)
   would increase ASDE-X implementation costs to $566 million and exceed the current ASDE-X program
   baseline.
** We also found that ASDE-X program officials decreased telecommunications costs estimates from
   $16.5 million to $8.5 million to remain within ASDE-X program baseline costs. However, FAA later
   reported that the telecommunications costs were actually one to two times higher than its original
   estimates, which could increase the costs to at least $33 million or up to $49.5 million.




Exhibit B. ASDE-X Program Cost Variances
                                                                                              23




      EXHIBIT C. OIG JUNE 2006 MANAGEMENT ADVISORY


                                              Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General




Subject:    ACTION: Management Advisory on Contract                  Date:    June 20, 2006
            Number DTFA01-01-C00011 (ASDE-X)
                                                                  Reply to
  From:     David A. Dobbs                                         Attn of:   JA-10
            Assistant Inspector General
             for Aviation and Special Programs Audits

    To:     Vice President of Acquisition and Business Services
            Federal Aviation Administration

            During our current audit of the Airport Surface Detection Equipment-Model X
            (ASDE-X) program, we identified prohibited and improper contract
            administration practices that should be brought to your immediate attention.
            These conditions relate to the prime contract for ASDE-X. Based on our
            limited review of the contract, responses from the Contracting Officer, we
            concluded that (1) the ASDE-X Contracting Officer is increasing contractor
            fees based on costs incurred rather than negotiated fixed-fee dollar amounts,
            (2) FAA is making payments before meaningful work has been completed on
            fixed-price items, and (3) the Contracting Officer is not adequately
            documenting contract changes.

            These practices violate Federal statute and FAA’s Acquisition Management
            System (AMS) best practices. Specifically:

                 • Federal statute and AMS guidance both prohibit the payment of a fee
                   computed as a variable of cost.
                 • On firm-fixed-price items, AMS guidance requires that payments be
                   made based on completion of meaningful work unless advance payment
                   criteria are met and procedures followed.




      Exhibit C. OIG June 2006 Management Advisory
                                                                                                   24


          • AMS guidance specifies that contract modifications should be properly
            documented to describe the changes made to the scope of work, the
            contract price, the period of performance, and other contract terms.

      Our concerns about the contract administration of ASDE-X fall into the
      following three categories.

      Administration of the contract bases contractor fees on a percentage of
      costs incurred rather than a negotiated fixed-fee dollar amount. Some
      contract items (e.g., installation and system enhancements, funded at
      $28 million and $56 million, respectively) have been administered using a
      methodology called “cost plus a percentage of cost”, which is prohibited by
      statute and the AMS. The Contracting Officer described the fee for installation
      as a percentage of cost instead of as a negotiated fixed-dollar amount.

      Our review of ASDE-X invoices also indicates that, despite numerous program
      changes to installation, the contractor bills and collects a fee that is a
      percentage of costs incurred. In a 1980 legal decision, the U.S. Comptroller
      General stated, “The evil of this [cost plus a percentage of cost] system is that
      the contractors have an incentive to pay liberally for reimbursable items,
      because higher costs mean higher profits.” 1

      When fees increase with increases in costs, the contractor has an incentive to
      encourage cost growth. We also understand that many changes in the contract
      were negotiated after work began. However, even if the fees were not set as a
      percentage of cost in those instances, negotiating contract costs and fees after
      the work has been performed has the same result because the contractor had no
      incentive to control costs.

      The contract provides payments before any meaningful work has been
      completed on fixed-price items. Most of the fixed-price line items
      inappropriately allow payment in advance of any meaningful work. As the
      AMS states, advance payments are the least preferred method of contract
      financing and must be used sparingly. We found examples showing that, as
      soon as the Government exercises its option to purchase a fixed-price item, this
      contract triggers a payment of 25 percent of the price. To date, FAA has
      exercised options that allowed over $21 million in payments of this type,
      which do not serve the Government’s best interest.

      Based on our preliminary review, these payments are advance payments made
      without following AMS procedures. Specifically, the procedures require that
      advance payments are made only after ensuring that partial or progress

1
    Comp. Gen. B-196, 556, Matter of Dept. of State—Method of Payment Provisions, Aug. 05, 1980.


Exhibit C. OIG June 2006 Management Advisory
                                                                                25


  payments are not feasible and that private financing is not reasonably available.
  Before advance payments are made, the Chief of the Contracting Office must
  review and approve them. These procedures must be followed because they
  help prevent the Government from expending money for no assured benefit.

  The contract lacks adequate documentation of contract changes. We
  found that on numerous occasions the Contracting Officer did not document
  contract changes properly or in a timely manner. The Contracting Officer
  added funds to the contract but did not identify the changes in the scope of
  work, the prices, the periods of performance, or other terms. For example,
  Contract Line Item 30 was added to the contract in May 2003 and funded at
  $445,000, but the Contracting Officer did not include any description of the
  work to be done, a negotiated price, or a ceiling value. Since then, the
  Contracting Officer has repeatedly added funding, and this line item now
  includes $56 million in funds. However, the Contracting Officer has not yet
  defined this work in the contract. In another example, the Contracting Officer
  told us that funds added to the contract in March 2005 were for new work but
  has not modified the contract to include or define this new item.

  Documenting contract changes is a basic and fundamental responsibility of the
  Contracting Officer. Unless the contract includes a clear definition of the work
  and its price, the Government is at risk of overpaying or paying for something
  it does not want.

  We recommend that FAA thoroughly investigate these issues and take
  immediate steps to correct these practices. Please advise us within 30 calendar
  days of the actions taken and planned to resolve these issues. If I can answer
  any questions or be of further assistance, please contact me at (202) 366-0500
  or the Program Director, Kevin Dorsey, at (202) 366-1518.


                                         #



  cc: Deputy Administrator
      Chief Operating Officer




Exhibit C. OIG June 2006 Management Advisory
                                                                                                                             26




EXHIBIT D. ASDE-X WATERFALL SCHEDULE
(AS OF AUGUST 14, 2006)
#        ID                 New Establishment Airports                  Delivery Date         IOC Date            ORD Date
1        MKE                General Mitchell International (Mil. WI)    3/12/02               6/5/03              10/30/03
2        MCO                Orlando International                       9/25/03               9/1/04              9/30/04
3        PVD                Theodore Francis Green State (Prov. RI)     12/1/03               7/2/04              5/16/05
4        HOU                William P. Hobby Airport (Houston, TX)      10/29/04              8/4/05              8/31/05
5        BDL                Bradley International Airport (Hart. CT)    3/14/05               6/7/06              6/21/06
6        PHX                Phoenix Sky Harbor International            Nov-07                Dec-08              TBD
7        FLL                Ft. Lauderdale/Hollywood                    May-08                Apr-09              TBD
8        SNA                John Wayne-Orange County                    Mar-09                Feb-10              TBD
9        MDW                Chicago Midway                              Aug-09                Jul-10              TBD
10       HNL                Honolulu International - Hickam AFB         Sep-09                Aug-10              TBD
                            ASDE-3/AMASS Airports
11       STL                Lambert-St. Louis International             12/3/03               10/21/04            5/24/06
12       SEA                Seattle-Tacoma International                12/23/04              1/27/06             2/24/06
13       ATL                Hartsfield-Jackson Atlanta International    7/11/05               5/5/06              6/7/06
14       IAD                Washington Dulles International             12/20/05*             Jul-08              TBD
                            Louisville International –Standiford
15       SDF                                                            3/8/04                Aug-07              TBD
                            Field
16       CLT                Charlotte Douglas International             1/13/04               Jul-07              TBD
17       LAX                Los Angeles International                   2/23/06*              Jun-09              TBD
18       MSP                Minneapolis-St. Paul International          Mar-09                Feb-10              TBD
19       DFW                Dallas/Ft. Worth International              Apr-09                Apr-10              TBD
20       MEM                Memphis International                       May-10                Apr-11              TBD
21       DEN                Denver International                        Jun-08                Jul-09              TBD
22       ORD                Chicago O'Hare International                Jul-08                Aug-09              TBD
23       LAS                Las Vegas McCarran International            Sep-08                Aug-09              TBD
24       IAH                George Bush Intercontinental                Dec-08                Nov-09              TBD
25       DCA                Ronald Reagan Washington National           Feb-10                Jan-11              TBD
26       BWI                Baltimore-Washington International          Jul-09                Jun-10              TBD
27       EWR                Newark International                        Jun-08                May-09              TBD
28       DTW                Detroit Metro Wayne County                  Aug-07                Aug-08              TBD
29       BOS                Boston Logan International                  Feb-08                Dec-08              TBD
30       JFK                John F. Kennedy International               Aug-08                Jul-09              TBD
31       MIA                Miami International                         Sep-09                Aug-10              TBD
32       LGA                New York LaGuardia                          Mar-10                Feb-11              TBD
33       PHL                Philadelphia International                  Jan-09                Dec-09              TBD
34       SLC                Salt Lake City International                Jun-09                May-10              TBD
35       SAN                San Diego International                     Apr-10                Mar-11              TBD
                            Support Systems
T1       ICDLS              Vendor Facility/ICDLS                       10/16/01              N/A
T2       PSF                FAA Program Support Facility                2/27/04               N/A
T3        FAAAC              FAA Academy – OKC                             6/10/04            N/A
Source: FAA Internal Program Review, March 2007
Washington Dulles (IAD) and Los Angeles International (LAX) delivered to airport but not yet installed.
Louisville (SDF), Charlotte (CLT), and Dulles (IAD) International Airports did not meet their FY 06 ORD dates.
Initial Operating Capability (IOC) – The declaration by site personnel that the ASDE-X system is ready for conditional
operational use in the NAS and denotes the end of Field Familiarization at that site.
Operational Readiness Date (ORD) - Signifies the official date to switchover to the new system.
TBD- to be determined and N/A-not applicable

Exhibit D. ASDE-X Waterfall Schedule
(as of August 14, 2006)
                                                                                            27




APPENDIX. AGENCY COMMENTS
                    Federal Aviation
                    Administration


Memorandum
Date:          September 25, 2007
To:            Robert E. Martin, Assistant Inspector General for Aviation and Special
               Program Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by:   Anthony Williams, x79000
Subject:       OIG Draft Report: FAA Needs to Improve ASDE-X Management Controls
               To Address Cost Growth, Schedule Delays, and Safety Risks, Federal
               Aviation Administration


Thank you for the opportunity to comment on the findings and recommendations of the
subject draft report, dated August 6. As each of the recommendations is valid, the FAA
concurs with all six of them. However, FAA would like to outline the various actions that
have already been taken with respect to the recommendations, and also to present our
assessment of the total baseline cost of the ASDE-X program.

The DOT OIG announced the audit of the ASDE-X Program in August 2005. Five months
later in January 2006 the objectives of the audit were revised. Two years after the audit was
first announced the draft report was issued to the FAA. During these two years the FAA had
already begun employing most of what is being recommended. These actions and any
additional actions the FAA plans to take are described below.

OIG Recommendation 1: Develop (a) realistic cost estimates for all activities required to
complete ASDE-X implementation and (b) a master schedule through ASDE-X completion
that outlines when all implementation activities and planned capabilities will be
commissioned for operational use.

FAA Response: Concur. (a) The FAA acknowledges the importance of establishing a
quantitatively supportable contract cost estimate for all activities required to enable ASDE-X
commissioning. Baselining this estimate, as a function of a contractual requirement, is
critical to evaluating program cost/schedule goal attainment, and taking appropriate
corrective action to address identified variances that may adversely affect program success.


Appendix. Agency Comments
                                                                                                                     28


The ASDE-X Contracting Officer (CO) has taken the following corrective action to address
these concerns.
    1. Issued Letter No. ASDE-X-2027 dated 1/20/07 informing Sensis Corp (ASDE-X
       Contractor) that the CO was considering incorporating EVMS reporting
       methodology, consistent with AMS 4.16 and Part 2, Section I clause 1.13-2 EVMS
       (April 2000). The ASDE-X contract, at inception, only required cost/performance
       reporting for contract line item number (CLIN) 0001.
    2. Issued Letter No. ASDE-X-4007 dated 7/30/07 outlining the required actions
       necessary to definitize the remaining unpriced CLINs. Sensis Corp. provided their
       comprehensive Estimate at Completion (EAC) summary via email dated 8/10/07.
    3. Issued Letter No. ASDE-X-4007a dated 8/25/07 providing CO comments to the
       Contractor’s EAC submittal and advising same of additional supplemental
       information required to support the planned negotiation for CLINs 0004 and 0023
       scheduled for 9/6-9/7/07.

ASDE-X program baseline cost estimates have remained consistent with the September 2005
rebaseline. The DOT OIG assessment that “cost estimates for six activities now exceed their
planned life-cycle estimates by $94 million” and the “FAA attempted to offset the cost
growth by decreasing other activities…” is based on the data in the rebaseline Life Cycle
Cost Estimate (LCCE) including fiscal year (FY) 2006-FY 2030 only and not the distribution
of the costs in the original baseline 1 . See Attachment A for rebaseline life cycle cost
estimate including distribution of cost in the original baseline.

The report indicates the DOT OIG believes installation costs and telecommunications costs
are particularly at risk of increasing. The ASDE-X Program Office has implemented
measures to control the telecommunications and equipment installation costs. Wherever
possible, the FAA is trying to reduce telecommunications cost by using, alternatives to FTI,
such as tying into existing FAA owned communications lines or installing Radio Frequency
(RF) modems. As for equipment installation, costs have been reduced by streamlining
activities, conducting activities in parallel when possible, and reducing iterations of written
reports and other contract deliverables.

(b) The ASDE-X schedule is on track with the September 2005 rebaseline. Although
Charlotte 2 , Louisville 3 and Washington Dulles 4 were delayed from the planning schedule
included in the rebaseline LCCE the next five sites, including Chicago O’Hare (1 year
expedited schedule), completed on schedule and all current implementation activities are on
or ahead of schedule.



 1
   Section 2.1 of the LCCE “Ground Rules and Assumptions; Estimating and Programmatic - Life
cycle Cost Estimate analysis timeframe is FY06-FY30. “
2
  Charlotte delayed due to Remote Unit (RU) siting and site prep issues
3
  Louisville delayed due to the decision by the Office of Independent Test and Evaluation (IOT&E) to
conduct ASDE-X Upgrade key site testing at Charlotte (both Charlotte and louisville were further delayed by the higher
Agency priorities of Seattle (cost share with Airport Authority and the ADE-3 tower had to be dismantled to accommodate
the Airport’s new runway) and Atlanta (to accommodate new air traffic control tower and new runway)
4
  Washington Dulles was delayed due to delays in the new tower construction


Appendix. Agency Comments
                                                                                                                         29


The ASDE-X Program Office uses a master integrated implementation schedule to manage
and track all implementation activities. This is not the waterfall schedule. The waterfall
schedule is a public reporting tool that maps to the September 2005 baseline. It is a risk
adjusted schedule that now only reports two high level milestones, equipment delivery and
Initial Operating Capability (IOC) 5 until a system achieves Operational Readiness Date
(ORD) 6 . For all intents and purposes the system is operational at IOC. The FAA has
previously provided the DOT OIG with complete copies of the waterfall (system delivery,
IOC, ORD) 7 although the report only referenced an incomplete waterfall pulled from an
Internal Program Review package. The current ASDE-X Waterfall is included as
Attachment B.

To manage the program, the ASDE-X Program use a master integrated working schedule to
track deployment activities including the development test and implementation of change
orders (major software builds) and the retrofit of change orders into systems that
commissioned with an earlier software build. It is a site by site rolling schedule broken down
by phase then by activity. The schedule dates in the working schedule are more aggressive to
allow for contingencies without missing the baseline schedule dates. The working schedule
dates are provided to the ASDE-X prime vendor Sensis Corporation contractually to ensure
diligence towards meeting the dates. The ASDE-X working schedule comes in two formats
– the Work Plan, a graphical representation of the plan for each site by phase, and the
Integrated Master Schedule (IMS), a Microsoft Project schedule by activity, maintained by
the vendor. The IMS is updated, at a minimum, on a monthly basis to reflect the current
status at each site, i.e., completed dates are added, schedule may be readjusted based on
current status, etc. The vendor works with the ASDE-X Implementation team to update the
IMS. The vendor uses the IMS for cost and resource planning. The working schedule is an
internal schedule that is not released outside the agency.

There are currently eleven commissioned systems. The remaining 24 systems are in various
stages of the ASDE-X deployment process. It takes approximately three years for an ASDE-
X system to become operational at an airport. This process includes site survey, site design,
lease approval, completion of environmental requirements, site preparation and construction,
installation, system optimization, training, and acceptance and commissioning activities.
All planned system capabilities have been deployed. The site by site software build and
system enhancement status and schedule is included as Attachment C.



5
 IOC is the declaration that the ASDE-X system is ready for conditional use in
the National Airspace System. After IOC is declared, the system is considered fully
operational. The air traffic controllers in the tower cab are using the system in what’s known as the Operational Suitability
Demonstration (OSD) period prior to “commissioning” the system. OSD is a time period during which the system is
operated under intense scrutiny to ensure the system satisfies all operational requirements including: availability,
compatibility, interoperability, reliability, maintainability, safety, human factors, and logistics supportability.
6
  Once the site determines that they are comfortable with the new system, they declare ORD. ORD signifies the end of
OSD, at which time, switchover to the new system is complete. ORD is usually about 30 days after IOC. Once the system
is formally accepted by the site via the Joint Acceptance Inspection (JAI) process, the system is commissioned.
7
  In February 2006 the FAA provided Partial ASDE-X Waterfall as of February 22, 2006 (reflected 2005 rebaseline, but
only included 17 airports; the names of the other airports had not yet been released); in May 2006 the FAA provided ASDE-
X Waterfall (Del-IOC-ORD) as of April 27, 2006


Appendix. Agency Comments
                                                                                            30


OIG Recommendation 2: Correct prohibitive and improper contract administration
procedures by (a) discontinuing the practice of increasing contractor fees based on costs
incurred rather than negotiated fixed-fee dollar amounts, (b) discontinuing the practice of
making payments before meaningful work has been completed on fixed-price items, and (c)
adequately documenting any contract changes.

FAA Response: Concur. (a) In addition to the actions described in the response to
Recommendation 1 above, the CO has completed the definitization of CLIN 0030 via
Modifications 0033 & 0034. These modifications established the estimated cost and fixed
fee for CLIN 0030. As noted above, the CO has informed the Contractor of the plan to
complete the definitization of CLINs 0004 and 0023 which represent the two remaining
significant unpriced contractual requirements. The CO will negotiate these two CLINs on
the basis of the Government’s analysis of the Contractor’s proposed cost and distinct
evaluation of the proposed fixed fee to determine its reasonableness. The target completion
date for the definitization of CLINs 0004 and 0023 is the end of September 2007.

(b) The CO has revisited Part 2, Section G, Contract Administration, Clause G-8, Milestone
Payments to ascertain the allowability of payments on fixed-price line items. This clause
specified milestone payments defined by contract deemed commensurate with promoting
efficient and economical contract performance. Each applicable CLIN allowing for
milestone payments has a defined milestone event which the Contractor must achieve and
document before he is entitled to receive a percent of the dollar value of the CLIN. The
Contractor must submit a written certification to the CO concurrent with his invoice for
payment. To ensure that this clause is properly administered the CO has taken the following
corrective action:
    1. Contractor requests for milestone payments submitted in accordance with G-8 must
        also include a review and concurrence by the FAA Resident Quality Reliability
        Officer (QRO) attesting to having accounted for the types and quantities of fixed-
        price items conforming to the percent of total items defined for the specific CLIN
        milestone being billed.
    2. The FAA QRO validation of the milestone event designated quantity will be
        submitted by the Contractor as supporting documentation with his invoice. Only
        those line items allowing for milestone payments in accordance with the clause will
        be allowed for this type of payment arrangement. The CO acknowledges the need to
        ensure that this clause is administered properly to achieve its desired effect without
        increasing the risk to the government of not incentivising payment for commensurate
        performance.

The CO has verbally informed the Contractor and the QRO of the above actions and plans to
issue a formal letter by the end of September 2007.

(c) The CO acknowledges the significance of untimely documenting and memorializing of
contract changes via contract modification, as a significant contributor to the potential for
cost growth and improper contract administration practices. The CO will comply with timely
documentation of contract changes via contract modification.




Appendix. Agency Comments
                                                                                          31



OIG Recommendation 3: Implement a comprehensive earned value management tool to
monitor and track ASDE-X cost, schedule, and performance goals.

FAA Response: Concur. The Office of Management and Budget (OMB) has mandated that
all major FAA programs have strong business cases and are executable within budget. To
ensure meeting the requirements of the mandate the FAA has committed to the OMB and the
General Accounting Office (GAO) that every major acquisition program will implement an
Earned Value Management System (EVMS). The FAA’s Acquisition Management System
(AMS) was subsequently updated to include EVM policy. The ASDE-X Program Office is
working with the FAA’s EVM Council to implement an EVMS that is compliant with
ANSI/EIS 748 Standard. The target date for completion is December 2007.

In the mean time the CO plans to incorporate cost reporting methodology consistent with
AMS EVMS requirements as a part of the definitization process for CLINs 0004 and 0023
(see response to Recommendation 1 above) by September 28, 2007.

OIG Recommendation 4: Resolve operational performance issues identified during system
testing before implementing key ASDE-X safety capabilities at other airports by (a)
addressing timeliness of safety alert capabilities for intersecting runways and fully testing
converging taxiway capability, (b) addressing problems with dropped targets and subsequent
system outages during heavy rain storms, and (c) testing rain configuration software
upgrades at airports with ASDE-3 radars and intersecting runways and taxiways.

FAA Response: Concur. The ASDE-X Program thoroughly tests every system
enhancement before it is implemented at an operational site. Development Test and
Evaluation is completed by the vendor to ensure the enhancement meets the requirements
and does not negatively impact other aspects of the system. The FAA also completes
Operational Test and Evaluation (OT&E) either at a site or in a simulated lab environment
using recorded data from one or more sites. On the ASDE-X Program, OT&E is completed
by FAA test personnel at the FAA’s William J. Hughes Technical Center. Also, in certain
cases, Independent Operational Test and Evaluation (IOT&E) completes additional testing,
usually when new systems are being introduced into the National Airspace System. IOT&E
was conducted on the “base” ASDE-X system, ASDE-X Safety Logic, and the ASDE-X
Upgrade (ASDE-3 interface). As part of the ASDE-X Upgrade IOT&E assessment, the
IOT&E team also tested intersecting runways.

Additionally, Factory Acceptance Test (FAT), Site Acceptance Test (SAT), and Field
Familiarization is performed on each system. FAT is performed by the vendor to verify
manufacturing defects are not present in the production system. SAT is performed in the
field by the vendor to ensure the system is installed and working correctly. Field
familiarization is conducted by second level engineering and site personnel to ensure the
system meets operational requirements and the site is ready to transition to the new system.
ASDE-X software build 5.0.7.2 test events and completion dates are included as Attachment
D.




Appendix. Agency Comments
                                                                                            32


(a) The specific example the OIG refers to when discussing the timeliness of the safety
alerting capability comes from IOT&E’s ASDE-X Upgrade Assessment Report. Of the 23
intersecting runway scenarios tested by IOT&E, the IOT&E team felt that 2 scenarios alerted
in an untimely manner. The ASDE-X Program Office analyzed these events and found that
while the system can be adapted to provide an increase in warning time for these particular
events; however, doing so would increase the likelihood of nuisance alerts for vehicles
approaching the runway intersections and for aircraft performing certain land and hold short
operations. Nuisance alerts impact system safety. These default parameters were not
changed at Louisville, the IOT&E test site. Since Louisville achieved Initial Operating
Capability in March 2007, there has been no report of missing or nuisance alerts involving
intersecting runways.

The converging taxiway capability fully tested by the test team from the FAA’s William J.
Hughes Technical Center (see Attachment D).

(b) Due to the nature of radar, heavy rains do have the potential to degrade radar
performance. This is a fact for all radar systems, not just specifically for ASDE-X.
However, because of improved radar processing and the addition of multilateration, the
ASDE-X system performs significantly better in all levels of rain as compared to the ASDE-
3 system. The ASDE-X Program also implemented a rain configuration system enhancement
designed to allow the ASDE-X system to operate in full core alerting mode during inclement
weather (including moderate to heavy rain). Suspected weather induced false tracks on the
runway(s) are eliminated from ASDE-X safety logic processing; however, they remain as
unknown icon(s) on the ASDE-X tower display.

The specific example that the OIG references regarding “problems with dropped targets and
subsequent system outages during heavy rain storms” comes from IOT&E’s ASDE-X
Upgrade Assessment Report. This assessment was completed in March/April 2007 at
Louisville. The ASDE-X system was adapted to address all Louisville rain events so that a
system outage would not occur in the event of heavy precipitation. After IOT&E and prior to
commissioning, Louisville had three significant rain events without an outage. The facility
was satisfied with the system performance and commissioned on July 19, 2007.

(c) Regarding the recommendation to specifically test the rain configuration enhancement at
an airport with an ASDE-3 radar, the ASDE-3 data or the ASDE-X Surface Movement Radar
(SMR) data is fused with the multilateration system data prior to safety logic processing so
safety logic functions the same regardless of the source of radar data. The rain mode
configuration was thoroughly tested at Orlando. High speed data playback analysis was
conducted, in addition to operational testing, to evaluate the performance of the rain
configuration. Thirty days of previously collected data from Orlando was played back and
analyzed along with an additional 20 hours of specific rain event data collected over a 30 day
operational testing period. Rain mode became operational at Orlando in June 2007. Rain
mode configuration is also operating with positive results at the 3 commissioned ASDE-X
airports with ASDE-3 radars Louisville, Charlotte, and Chicago O’Hare.




Appendix. Agency Comments
                                                                                            33


OIG Recommendation 5: Determine (a) whether ASDE-X, ADS-B, and in-cockpit moving
maps technologies can be combined to simultaneously provide controllers and pilots with
direct alerts to warn them of potential ground collisions and (b) the costs and timeline for
implementing this capability at all ASDE-X airports.

FAA Response: Concur. (a) The FAA is examining emerging capabilities including in-
cockpit moving map technologies to determine the feasibility of such systems. Honeywell
International and Sensis Corporation in cooperation with the FAA recently demonstrated
cockpit advisory technology using the ASDE-X system. The technology, which detects and
communicates potential runway incursions directly to an aircraft cockpit crew, was
demonstrated at the FAA’s Interim Contractor Depot Level Support facility at Syracuse
Hancock International Airport with an ASDE-X test system and a Honeywell test aircraft.

(b) Once the feasibility of the capability is determined, the FAA will begin to build the
business case including cost and schedule.

Additionally, the FAA has recently established the Runway Status Light (RWSL) Program
Office. RWSL is an automatic system of airfield lights that convey runway status directly to
pilots and vehicle operators. A final investment decision is expected early in FY08.

OIG Recommendation 6: Work with airports to aggressively promote equipping their
vehicles with transponders to maximize ASDE-X capabilities as a vital step in reducing the
risks of ground collisions caused by vehicle operator error.

FAA Response: Concur. With the deployment of ASDE-X to the field, industry began
producing squitters that operated on the 1090 MHz frequency. In the meantime, the FAA
adopted the ICAO 978 MHz standard for the Universal Access Transceiver and instructed
airports that vehicle squitters would have to operate under that frequency as well as the 1090
MHz frequency. Since here were no commercial squitter products available using the 978
MHz frequency, the FAA is expediting an interim rule that would allow airports to use 1090
MHz, 20 watt squitters until products are available that transmit in the 978 MHz frequency.

To provide initial guidance for the voluntary acquisition and operation of this equipment in
airport vehicles, Advisory Circular 150/5220-XX was drafted and will be published early
next fiscal year.




Appendix. Agency Comments
                                                                                                 34
                                                                                       Attachment A

Attachment A: ASDE-X Cost Estimates
(Items in yellow are directly from the table in Exhibit B of the OIG Draft Report.)

         Cost Element                        ASDE-X Program                  Current
                                              Rebaseline Cost             Cost Estimate
                                                  Estimate              (as of Dec. 2006)
                                             (as of Sept. 2005)         [from OIG Draft
                                                    ($M)                 Report, Exhibit
                                                                                B]
         Procurement/Production                        $179.736                $179.74
         Program Management                            $120.097                $120.10
         Software Design and                            $58.821                 $58.82
         Development
         Logistics Support                              $18.343                   $18.34
         Second Level Engineering                        $7.898                    $7.90
         Test and Evaluation                             $6.231                    $6.23
                           Subtotal                    $391.126                  $391.13

         Disposition                                    $28.900                   $28.90
         Construction                                   $56.849                   $56.85
         Installation                                   $44.109                   $44.11
         Site Survey                                     $8.170                    $8.17
         Telecommunications                              $8.492                    $8.49
         Logistics                                       $6.131                    $6.13
         Systems Engineering                             $2.736                    $2.74
                          Subtotal                     $155.387                  $155.39

         Other (Leases)                                   $3.324                      $3.32

         Grand Total                                   $549.837                  $549.84




Appendix. Agency Comments
                                                                                                                                                                                                      Attachment A
ASDE-X Program Baseline Cost Estimate
WBS Number   Cost Element                                                         FY 2000 FY 2001  FY 2002 FY 2003 FY 2004 FY 2005 FY 2006    FY 2007 FY 2008 FY 2009  FY 2010 FY 2011 FY 2012- FY2030 Total ($M)
             Life Cycle Cost Estimate                                               $7.585 $10.792  $22.400 $106.926 $104.285 $48.842 $29.869  $66.309 $41.756 $31.064  $18.803 $11.682         $306.074 $806.388
               Facilities and Equipment Costs (F&E)                                 $7.585 $10.792  $22.400 $106.800 $103.900 $47.721 $27.564  $63.908 $37.947 $26.122  $13.230  $4.821          $77.046 $549.836
3.0               Solution Development                                              $4.300  $7.393  $14.263  $74.120  $51.974 $24.945 $10.848  $28.061  $2.417  $0.835   $0.567                  $46.143 $265.867
3.1                 Program Management
3.2                 Systems Engineering                                                                          $0.583              $0.198   $1.481    $0.474                                                     $2.736
3.2.7.1                Engineering Change Orders
3.2.9.1                INFOSEC                                                                                   $0.583              $0.198   $1.481    $0.474                                                     $2.736
3.3                 HW/SW Design, Development and Production                        $4.300   $6.993   $13.441   $67.203   $43.702   $21.800   $7.096   $24.436    $2.041   $0.835   $0.567             $46.143   $238.556
3.3.1                  Hardware Design and Development
3.3.2                  Software Design and Development                                                          $14.756   $14.568   $16.515   $5.977    $6.164    $0.840                                          $58.821
3.3.2.1                   Enhancements                                                                          $11.728    $5.695    $8.031   $4.538    $2.441                                                    $32.433
3.3.2.2                   New Software Requirements                                                              $3.029    $8.873    $8.484   $1.439    $3.723    $0.840                                          $26.388
3.3.5                  Procurement/Production                                       $4.300   $6.993   $13.441   $52.446   $29.134    $5.285   $1.119   $18.271    $1.201   $0.835   $0.567             $46.143   $179.736
3.3.5.1                   System Hardware                                           $4.300   $6.585   $12.362   $48.121   $26.749    $1.370   $0.114   $15.048                                                   $114.650
3.3.5.1.1                    Non-Recurring (CLIN 1)                                 $4.300   $5.477   $11.596    $7.479              $0.250                                                                       $29.102
3.3.5.1.2                    Recurring                                                       $1.108    $0.766   $40.642   $26.749                      $11.744                                                    $81.010
3.3.5.1.3                    New Hardware Requirements                                                                               $1.120   $0.114    $3.304                                                     $4.539
3.3.5.5                   System Engineering/Program Management                              $0.408    $1.079    $4.326    $2.385    $3.915   $1.005    $3.223    $1.201   $0.835   $0.567                        $18.942
3.3.5.6                   Technology Refresh                                                                                                                                                           $46.143    $46.143
3.4                 Physical and Airspace Infrastructure Design & Development
3.5                 Test and Evaluation                                                      $0.400    $0.822    $1.907    $0.499    $0.885   $0.966    $0.586    $0.166                                           $6.231
3.5.2                  Test and Evaluation Support                                                     $0.422    $1.507    $0.499    $0.385   $0.458    $0.327    $0.166                                           $3.764
3.5.5                  Government Conduct IOT&E                                              $0.400    $0.400    $0.400              $0.500   $0.509    $0.259                                                     $2.467
3.6                 Data and Documentation
3.7                 Logistic Support                                                                             $4.427    $7.773    $2.062   $1.305    $2.566    $0.210                                          $18.343
3.7.4                  Industrial Facilities                                                                     $0.124    $0.474    $1.160                                                                        $1.758
3.7.4.1                   ICDLS Setup                                                                                                $0.310                                                                        $0.310
3.7.4.2                   Program Support Facility                                                               $0.124    $0.474    $0.850                                                                        $1.448
3.7.4.2.1                    Design PSF
3.7.4.2.2                    PSF Setup                                                                           $0.124    $0.474    $0.850                                                                        $1.448
3.7.5                  Support Equipment                                                                                   $1.880    $0.399   $0.135    $0.069    $0.210                                           $2.692
3.7.6                  Support Facilities and Equipment Maintenance
3.7.7                  Initial Spares and Repair Parts                                                           $4.303    $4.052             $1.170    $2.498                                                    $12.022
3.7.7.1                   Radar Spares                                                                           $4.303    $4.052             $1.170    $2.498                                                    $12.022
3.7.7.1.1                    Initial Spares-Site                                                                 $4.103    $1.352                                                                                  $5.455
3.7.7.1.2                    Initial Spares-Depot                                                                $0.200    $2.700             $1.170    $2.498                                                     $6.567
3.7.8                  Initial Training                                                                                    $1.367    $0.504                                                                        $1.871
3.7.8.1                   Training Set Up                                                                                  $1.367                                                                                  $1.367
3.7.8.2                   Training Development
3.7.8.3                   Depot Training
3.7.8.4                   Second Level Training
3.7.8.5                   Site Technician Training                                                                                   $0.504                                                                        $0.504
3.7.8.6                   ATC Training
3.7.8.7                   TOR
WBS Number   Cost Element                                                         FY 2000 FY 2001  FY 2002 FY 2003 FY 2004 FY 2005 FY 2006  FY 2007 FY 2008 FY 2009  FY 2010 FY 2011 FY 2012- FY2030 Total ($M)
4.0               Implementation                                                    $3.285  $3.149   $7.147 $30.678 $50.226 $20.898 $13.576  $34.124 $34.201 $21.026   $7.987  $1.963          $0.965 $229.225
4.1                 Program Management                                              $3.285  $2.327   $4.354 $19.892 $34.813 $11.983 $10.420  $14.352  $6.990  $5.768   $2.985  $1.963          $0.965 $120.097
4.1.1                  Program Planning, Authorization Management and Control       $3.285  $2.327   $4.354 $19.184 $33.920  $8.047  $6.439   $8.123  $6.961  $5.709   $2.985  $1.963          $0.965 $104.263
4.1.1.1                   Administrative Support                                                     $1.016  $2.908  $4.143  $1.678  $1.530   $2.737  $1.645  $1.128   $0.567  $0.202          $0.067   $17.622
4.1.1.2                Program Office Support                                       $3.285  $2.327   $3.338 $16.276 $29.777  $6.369  $4.909   $5.385  $5.316  $4.581   $2.418  $1.762          $0.898   $86.641
4.1.2                  Clin4 (Program Management)                                                            $0.708  $0.893  $3.936  $3.981   $6.229  $0.029  $0.058                                    $15.834
4.2                 Engineering, Planning, and Design                                                                        $0.700  $2.136   $3.409  $1.925                                             $8.170
4.3                 Environmental And Occupational Safety and Health Compliance
4.4                 Site Selection and Acquisition
4.5                 Construction                                                                       $0.451    $5.595    $7.965    $5.290   $0.292   $16.363   $15.561   $5.333                                 $56.849
4.5.1                  Site Survey/Design/Preparation                                                  $0.451    $3.223    $4.730    $4.790   $0.275   $13.589   $12.903   $4.769                                 $44.729
4.5.1.1                   Processing Equipment                                                         $0.451    $3.223    $1.343    $1.000   $0.051    $1.860    $1.373   $0.316                                  $9.617
4.5.1.2                   RU's                                                                                             $1.408    $2.750   $0.086    $8.238    $9.950   $3.809                                 $26.241
4.5.1.3                   Stand Alone Tower                                                                                $1.979    $0.440   $0.122    $2.110                                                     $4.651
4.5.1.4                   Equipment Room                                                                                             $0.600   $0.015    $1.381    $1.579   $0.644                                  $4.219
4.5.2                Construction Labor                                                                          $2.372    $3.235    $0.500   $0.017    $2.774    $2.658   $0.564                                 $12.121
4.6                 Site Preparation, Installation, Test and Checkout                        $0.822    $2.342    $5.191    $7.448    $2.925   $0.729              $9.725   $9.925   $5.002                        $44.109
4.6.1                  Installation                                                          $0.822    $2.342    $5.191    $7.448    $2.925   $0.729              $9.725   $9.925   $5.002                        $44.109
4.6.1.1                   Equipment Installation Costs                                       $0.822    $2.342    $5.191    $7.448    $1.925   $0.415              $5.935   $6.063   $2.815                        $32.956
4.6.1.2                   Site Related Costs                                                                                         $1.000   $0.314              $3.790   $3.862   $2.187                        $11.153
4.6.1.3                   PM Activities
4.7                 Commissioning/Closeout
4.8                 Telecommunications
5.0               In-Service Management                                                      $0.250    $0.990    $2.002    $1.700    $1.428   $2.225    $1.659    $0.301   $4.262   $4.676   $2.858     $3.495    $25.845
5.1                 Preventative Maintenance
5.2                 Corrective Maintenance
5.3                 Modifications
5.4                 Maintenance Control
5.5                 Technical Teaming
5.6                 Watch Standing Coverage
5.7                 Program Support



Appendix. Agency Comments                                                                                                                                                                                                   35
                                                                                                                                                                                                               Attachment A
WBS Number   Cost Element                                                                  FY 2000   FY 2001    FY 2002    FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012- FY2030 Total ($M)
5.8                  Logistics                                                                                               $0.127  $1.136  $0.360  $0.671  $0.586  $0.066  $0.608  $1.308  $0.982          $0.286    $6.131
5.8.1                   Supply Support
5.8.2                   Replenishment Spares
5.8.3                   Repair                                                                                               $0.127   $1.136   $0.360   $0.671   $0.586   $0.066   $0.608   $1.308   $0.982    $0.286    $6.131
5.8.3.1                    Logistics Support Management (AML)
5.8.3.2                    ICDLS                                                                                             $0.127   $1.136   $0.360   $0.671   $0.586   $0.066   $0.608   $1.308   $0.982    $0.286    $6.131
5.8.3.3                    Contractor Repair (F&E)
5.9                  In-Service Training
5.10                 Second Level Engineering                                                          $0.250     $0.990     $1.875   $0.520   $0.782   $0.763   $0.652   $0.166   $0.507   $0.689   $0.527    $0.179    $7.898
5.10.3                  Hardware and Software Engineering Support                                      $0.250     $0.990     $1.875   $0.520   $0.782   $0.763   $0.652   $0.166   $0.507   $0.689   $0.527    $0.179    $7.898
5.10.3.1                   2nd level engineering support
5.10.3.2                   2nd Level Engineering Services (AOS)                                        $0.250     $0.990     $1.875   $0.520   $0.782   $0.763   $0.652   $0.166   $0.507   $0.689   $0.527    $0.179    $7.898
5.10.3.3                   Contractor Site Support
5.11                 Infrastructure Support                                                                                           $0.044   $0.287   $0.791   $0.421   $0.069   $3.147   $2.679   $1.349    $3.030   $11.816
5.11.2                  Utilities
5.11.3                  Leased Telecom                                                                                                $0.044 $0.276  $0.769  $0.398  $0.033  $3.050  $2.556  $1.224           $0.142   $8.492
5.11.3.1                   (Non-Recurring)                                                                                            $0.038 $0.150  $0.519  $0.171          $2.748  $1.906  $0.735                    $6.266
5.11.3.2                   (Recurring)                                                                                                $0.006 $0.126  $0.250  $0.227  $0.033  $0.302  $0.650  $0.489           $0.142   $2.226
5.11.5                  Leases                                                                                                               $0.011  $0.022  $0.023  $0.036  $0.096  $0.123  $0.125           $2.888   $3.324
6.0               Disposition                                                                                                                $0.450  $0.915  $0.063  $1.028                                  $26.443  $28.900
6.5                  Dismantle/Removal                                                                                                       $0.450  $0.915  $0.063  $1.028                                  $26.443  $28.900
WBS Number   Cost Element                                                                  FY 2000   FY 2001    FY 2002    FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012- FY2030 Total ($M)
5.0            In-Service Management                                                                                         $0.126  $0.385  $1.121  $2.305  $2.401  $3.810  $4.942  $5.573  $6.861         $229.028 $256.551
5.1               Preventative Maintenance
5.2               Corrective Maintenance                                                                                                       $0.171   $0.586   $0.468   $0.464   $1.116   $1.631   $1.703   $50.560   $56.699
5.2.1                Corrective Maintenance Staffing                                                                                           $0.140   $0.480   $0.383   $0.380   $0.914   $1.336   $1.395   $41.408   $46.436
5.2.2                SMO                                                                                                                       $0.031   $0.106   $0.085   $0.084   $0.202   $0.295   $0.308    $9.152   $10.263
5.3               Modifications
5.4               Maintenance Control
5.5               Technical Teaming
5.6               Watch Standing Coverage                                                                                                      $0.032   $0.108   $0.016            $0.147   $0.166   $0.068              $0.537
5.6.1                Site Technician Training                                                                                                  $0.022   $0.065   $0.009            $0.088   $0.100   $0.041              $0.325
5.6.2                ATC Training                                                                                                              $0.010   $0.043   $0.006            $0.059   $0.066   $0.027              $0.212
5.7               Program Support                                                                                                                                                                              $4.616    $4.616
5.7.1                FAA Employee                                                                                                                                                                              $2.690    $2.690
5.7.2                Contractor FTE                                                                                                                                                                            $1.927    $1.927
5.8               Logistics                                                                                                                             $0.228   $0.469   $1.195   $1.282   $1.306   $2.121   $76.886   $83.488
5.8.1                Supply Support                                                                                                                     $0.002   $0.004   $0.012   $0.013   $0.013   $0.024    $5.554    $5.622
5.8.1.1                 Supply Support Services                                                                                                                                                                $4.648    $4.648
5.8.1.2                 Packaging, Handling, Storage, and Transportation (PHS&T) - FAALC                                                                $0.002   $0.004   $0.012   $0.013   $0.013   $0.024    $0.905    $0.973
5.8.2                Replenishment Spares                                                                                                               $0.029   $0.059   $0.163   $0.179   $0.182   $0.326   $12.392   $13.330
5.8.2.1                 Consumables                                                                                                                     $0.026   $0.052   $0.146   $0.161   $0.164   $0.297   $11.440   $12.287
5.8.2.2                 E&R/R&R                                                                                                                         $0.003   $0.007   $0.017   $0.018   $0.018   $0.029    $0.952    $1.044
5.8.3                Repair                                                                                                                             $0.181   $0.373   $0.942   $1.004   $1.023   $1.629   $53.775   $58.929
5.8.3.1                 FAA Repair (Organic)
5.8.3.2                 Commercial Depot Repair                                                                                                         $0.181   $0.373   $0.942   $1.004   $1.023   $1.629   $53.775   $58.929
5.8.5                Support Equipment                                                                                                                  $0.016   $0.033   $0.078   $0.086   $0.087   $0.142    $5.165    $5.607
5.8.5.1                 Standard Test and Support Equipment                                                                                             $0.016   $0.033   $0.078   $0.086   $0.087   $0.142    $5.165    $5.607
5.8.5.2                 Special Support Equipment
5.8.5.3                 Calibration Standards/ Services
5.8.6                Technical Data
5.9               In-Service Training                                                                                                          $0.072   $0.305   $0.043            $0.327   $0.369   $0.266    $4.452    $5.835
5.9.1                Depot Training
5.9.1.1                 Instructor
5.9.1.2                 Student
5.9.2                Second Level Training                                                                                                              $0.062                                                           $0.062
5.9.3                Site Technician Training                                                                                                  $0.055   $0.167   $0.032            $0.223   $0.252   $0.182    $3.071    $3.982
5.9.3.1                 Instructor                                                                                                             $0.029   $0.066   $0.018            $0.086   $0.096   $0.072    $1.250    $1.616
5.9.3.2                 Student                                                                                                                $0.026   $0.101   $0.015            $0.137   $0.155   $0.111    $1.821    $2.366
5.9.4                ATC Training                                                                                                              $0.017   $0.077   $0.011            $0.104   $0.118   $0.084    $1.381    $1.791
5.9.4.1                 Instructor                                                                                                             $0.017   $0.077   $0.011            $0.104   $0.118   $0.084    $1.381    $1.791
5.9.4.2                 Student
5.10              Second Level Engineering Direct work Maintenance Staffing                                                  $0.102   $0.310   $0.698   $0.722   $0.942   $1.475   $1.186   $1.058   $1.275   $48.080   $55.847
5.10.1               FAA Personnel                                                                                           $0.102   $0.310   $0.542   $0.569   $0.617   $0.648   $0.680   $0.714   $0.750   $24.037   $28.967
5.10.2               Contractor Personnel                                                                                                      $0.156   $0.153   $0.325   $0.827   $0.506   $0.344   $0.525   $24.044   $26.880
5.10.3               Fixed Cost
5.11              Infrastructure Support                                                                                     $0.025   $0.075   $0.147   $0.355   $0.463   $0.676   $0.885   $1.043   $1.428   $44.434   $49.530
5.11.2               Utilities                                                                                               $0.025   $0.075   $0.147   $0.294   $0.323   $0.329   $0.496   $0.647   $0.700   $16.148   $19.185
5.11.3               Leased Telecommunications                                                                                                          $0.061   $0.140   $0.347   $0.388   $0.395   $0.728   $28.286   $30.345
5.12              Flight Inspections and SIAP Development
5.13              System Performance Assessment
5.14              System Operations-AT Staffing
5.15              Travel to and From FAA Sites



Appendix. Agency Comments                                                                                                                                                                                                         36
                                                                                                                  37
                                                                                                        Attachment B

Attachment B: ASDE-X Waterfall (as of August 30, 2007)

 #     ID     Region                            Airport                           Delivery    IOC           ORD
  1   MKE      AGL       General Mitchell International Airport (Milwaukee, WI)    3/12/02    6/5/03       10/30/03
  2   MCO      ASO       Orlando International Airport                             9/25/03    9/1/04       9/30/04
  3   PVD      ANE       Theodore Francis Green State Airport (Providence, RI)    12/1/03     7/2/04       5/16/05
  4   HOU      ASW       William P. Hobby Airport (Houston, TX)                   10/29/04    8/4/05       8/31/05
  5   SEA      ANM       Seattle-Tacoma International Airport                     12/23/04   1/27/06       2/24/06
  6   STL      ACE       Lambert-St. Louis International Airport                   12/3/03   10/21/04      5/24/06
  7   ATL      ASO       Hartsfield-Jackson Atlanta International Airport          7/11/05    5/5/06        6/7/06
  8   BDL      ANE       Bradley International Airport (Hartford, CT)              3/14/05    6/7/06       6/21/06
  9   SDF      ASO       Louisville International Airport-Standiford Field          3/8/04   3/11/07       7/19/07
 10   CLT      ASO       Charlotte Douglas International Airport                   1/13/04    7/6/07       8/30/07
 11   IAD      AEA       Washington Dulles International Airport                  12/20/05    Jul-08
 12   PHX      AWP       Phoenix Sky Harbor International Airport                  4/19/07    Dec-08
 13   BOS      ANE       Boston Logan International Airport                        Sep-08     Jul-09
 14   DTW      AGL       Detroit Metro Wayne County Airport                        5/16/07    Jun-08
 15   EWR      AEA       Newark International Airport                              Sep-08     Jul-09
 16   LAX      AWP       Los Angeles International Airport                         2/23/06    Jun-09
 17   DEN      ANM       Denver International Airport                              Jan-09     Nov-09
 18   JFK      AEA       John F. Kennedy International Airport                     Aug-08     Jul-09
 19   ORD      AGL       Chicago O'Hare International Airport                      3/26/07   7/29/07       8/29/07
 20   LAS      AWP       Las Vegas McCarran International Airport                  Feb-09     Dec-09
 21   IAH      ASW       George Bush Intercontinental Airport                      Dec-08     Nov-09
 22   PHL      AEA       Philadelphia International Airport                        Jan-09     Dec-09
 23   FLL      ASO       Ft. Lauderdale/Hollywood Airport                         May-08      Apr-09
 24   MSP      AGL       Minneapolis-St. Paul International Airport                Mar-09     Feb-10
 25   SNA      AWP       John Wayne-Orange County Airport                          Mar-09     Feb-10
 26   DFW      ASW       Dallas/Ft. Worth International Airport                    Apr-09     Apr-10
 27   SLC      ANM       Salt Lake City International Airport                      Jun-09    May-10
 28   BWI      AEA       Baltimore-Washington International Airport                 Jul-09    Jun-10
 29   MDW      AGL       Chicago Midway Airport                                    Aug-09     Jul-10
 30   HNL      AWP       Honolulu International - Hickam AFB Airport               Sep-09    Aug-10
 31   MIA      ASO       Miami International Airport                               Sep-09     Aug-10
 32   DCA      AEA       Ronald Reagan Washington National Airport                 Feb-10     Dec-10
 33   LGA      AEA       New York LaGuardia Airport                                Feb-10     Dec-10
 34   SAN      AWP       San Diego International Airport                           Mar-10     Jan-11
 35   MEM      ASO       Memphis International Airport                             Mar-10     Jan-11
                         Test & Interim Contractor Depot Logistics Support
 T1   ICDLS              (ICDLS) - Syracuse [Oklahoma City - FAA Logistics        10/16/01     N/A
                         Center (AML Depot)]
                         Oklahoma City - NAS Engineering Program Support
 T2    PSF                                                                        2/27/04      N/A
                         Facility (PSF)
 T3   ACA                Oklahoma City - Academy                                  6/10/04      N/A

 mm/dd/yy     = actual




Appendix. Agency Comments
                                                                                                                 38
                                                                                                       Attachment C

Attachment C: ASDE-X Software Enhancement Schedule

        Build & System Enhancements Status by Site (09/21/2007)
                                                                                       5.0.7.2.2
                                                                                      Deployed
                                                                                                           Change Order 6
                                                                                [Includes Rain Mode,
                                                                                                            NLT IOC date
                                                                                    Tower Config,
 #      ID    Region                              Airport                                              [Includes PRM-A, Split
                                                                                Intersecting Runway
                                                                                                            Ops, Security
                                                                                   Alerts, ASDE-X
                                                                                                           Enhancements]
                                                                                  Upgrade (formerly
                                                                                      ASDE-3X)]

 1     MKE     AGL     General Mitchell International Airport (Milwaukee, WI)         Jul 2007
 2     MCO     ASO     Orlando International Airport                                 Jan 2007
 3     PVD     ANE     Theodore Francis Green State Airport (Providence, RI)         Feb 2008
 4     HOU     ASW     William P. Hobby Airport (Houston, TX)                        May 2008
 5     SEA     ANM     Seattle-Tacoma International Airport                                              Feb 2008 (key site)
 6     STL     ACE     Lambert-St. Louis International Airport                       Feb 2008
 7     ATL     ASO     Hartsfield-Jackson Atlanta International Airport              Sep 2007
 8     BDL     ANE     Bradley International Airport (Hartford, CT)                  Feb 2008
 9     SDF     ASO     Louisville International Airport-Standiford Field              Jul 2007
 10    CLT     ASO     Charlotte Douglas International Airport                       Aug 2007
 11    IAD     AEA     Washington Dulles International Airport                                                Jul 2008
 12    PHX     AWP     Phoenix Sky Harbor International Airport                                              Dec 2008
 13    BOS     ANE     Boston Logan International Airport                                                     Jul 2009
 14    DTW     AGL     Detroit Metro Wayne County Airport                                                    Jun 2008
 15    EWR     AEA     Newark International Airport                                                           Jul 2009
 16    LAX     AWP     Los Angeles International Airport                                                     Jun 2009
 17    DEN     ANM     Denver International Airport                                                          Nov 2009
 18     JFK    AEA     John F. Kennedy International Airport                                                  Jul 2009
 19    ORD     AGL     Chicago O'Hare International Airport                          Aug 2007           Nov 2008 (2nd tower)
 20    LAS     AWP     Las Vegas McCarran International Airport                                              Dec 2009
 21    IAH     ASW     George Bush Intercontinental Airport                                                  Nov 2009
 22    PHL     AEA     Philadelphia International Airport                                                    Dec 2009
 23    FLL     ASO     Ft. Lauderdale/Hollywood Airport                                                       Apr 2009
 24    MSP     AGL     Minneapolis-St. Paul International Airport                                            Feb 2010
 25    SNA     AWP     John Wayne-Orange County Airport                                                      Feb 2010
 26    DFW     ASW     Dallas/Ft. Worth International Airport                                                 Apr 2010
 27    SLC     ANM     Salt Lake City International Airport                                                  May 2010
 28    BWI     AEA     Baltimore-Washington International Airport                                            Jun 2010
 29    MDW     AGL     Chicago Midway Airport                                                                 Jul 2010
 30    HNL     AWP     Honolulu International - Hickam AFB Airport                                           Aug 2010
 31    MIA     ASO     Miami International Airport                                                           Aug 2010
 32    DCA     AEA     Ronald Reagan Washington National Airport                                             Dec 2010
 33    LGA     AEA     New York LaGuardia Airport                                                            Dec 2010
 34    SAN     AWP     San Diego International Airport                                                       Jan 2011
 35    MEM     ASO     Memphis International Airport                                                         Jan 2011


      Current Enhancements
      Upcoming Enhancement




Appendix. Agency Comments
                                                                                                                    Attachment D




Attachment D: ASDE-X Software Build 5.0.7.2 Test Events and Completion Dates

 Test Event                                               Test               Test Location      Test Dates
                                                          Organization
 ASDE-X Software Build 5.0.7.2 Factory Acceptance Test    Sensis             Syracuse, NY       1. Engineering Dry Runs:
 [Includes Rain Mode, Tower Configuration, Intersecting                                            11/16/06 to 11/22/06
 Runway Alerts, ASDE-X Upgrade (formerly ASDE-3X)]                                              2. FAA-Witnessed Dry Runs:
                                                                                                   11/2706 to 12/14/06
                                                                                                3. Formal Test: 12/8/06 to
                                                                                                   12/15/06
 ASDE-X Software Build 5.0.7.2 National Baseline Test     FAA Technical      1. ASDE-X Lab in   1. 9/1/06 to present
 [Includes Rain Mode, Tower Configuration, Intersecting   Center                Washington DC
 Runway Alerts, ASDE-X Upgrade (formerly ASDE-3X)]                           2. Orlando, FL     2. 1/9/07 to 1/11/07

 ASDE-X Upgrade Independent Operational Test &            FAA Office of      Louisville, KY     3/11/07 to 4/4/07
 Evaluation (IOT&E) Assessment                            Independent
 [Includes converging runway capability]                  Operational Test
                                                          & Evaluation




Appendix. Agency Comments                                                                                                    39
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
   FAA Needs To Improve Airport Surface Detection Equipment-Model X
 (ASDE-X) Management Controls To Address Cost Growth, Schedule Delays,
                           and Safety Risks

                        Section 508 Compliant Presentation



Table 1. History of ASDE-X Strategy Changes

Item 1. Date of change: September 2001. Purpose of change: first program baseline.
Number of ASDE-X airports planned: 26 (Note: these airports were comprised of 25
airports without surface surveillance and 1 ASDE-3/AMASS airport). Planned
completion date was 2007. Cost increase $424,300,000.

Item 2. Date of change: June 2002. Purpose of change: second baseline—included plan
to upgrade seven more ASDE-3/AMASS airports. Number of ASDE-X airports planned:
33 (Note: these airports were comprised of 25 airports without surface surveillance and 8
ASDE-3/AMASS airports). Planned completion date was 2007. Cost increase
$80,900,000.

Item 3. Date of change: October 2003. Purpose of change: to upgrade two more ASDE-
3/AMASS airports. Number of ASDE-X airports planned: 35 (Note: these airports were
comprised of 25 airports without surface surveillance and 10 ASDE-3/AMASS airports).
Planned completion date was 2007. Cost increase: $0

Item 4. Date of change: September 2005. Purpose of change: third baseline and major
strategy shift to upgrade 25 ASDE-3/AMASS airports. Number of ASDE-X airports
planned: 35 (Note: these airports were comprised of 10 airports without surface
surveillance and 25 ASDE-3/AMASS airports). Planned completion date is 2011. Cost
increase: $44,600,000.

The current total number of ASDE-X airports planned is 35. The current planned
completion date is 2011. The current ASDE-X cost estimate is $549,800,000.

Source: ASDE-X JRC baseline documents
Table 2. ASDE-X Cost Estimates for Six Activities

Cost Element:       Planned Cost                 Current Cost         Cost Growth:
Procurement/        Estimate: (as of             Estimate: (as of     $36,790,000
Production          September 2005)              December 2006)
                    $142,950,000                 $179,740,000
Cost Element:       Planned Cost                 Current Cost         Cost Growth:
Program Management Estimate: (as of              Estimate: (as of     $26,630,000
                    September 2005)              December 2006)
                    $93,470,000                  $120,100,000
Cost Element:       Planned Cost                 Current Cost         Cost Growth:
Software Design and Estimate: (as of             Estimate: (as of     $20,330,000
Development         September 2005)              December 2006)
                    $38,490,000                  $58,820,000
Cost Element:       Planned Cost                 Current Cost         Cost Growth:
Logistics Support   Estimate: (as of             Estimate: (as of     $7,340,000
                    September 2005)              December 2006)
                    $11,000,000                  $18,340,000
Cost Element:       Planned Cost                 Current Cost         Cost Growth:
Second-Level        Estimate: (as of             Estimate: (as of     $2,400,000
Engineering         September 2005)              December 2006)
                    $5,500,000                   $7,900,000
Cost Element: Test  Planned Cost                 Current Cost         Cost Growth:
and Evaluation      Estimate:                    Estimate: (as of     $730,000
                    (as of September             December 2006)
                    2005) $5,500,000             $6,230,000

The total planned cost estimate for these six activities (as of September 2005) was
$296,910,000. The total current cost estimate for these six activities (as of December
2006) is $391,130,000. The total cost growth for these six activities is $94,220,000.

Source: OIG analysis of ASDE-X basis of estimates and ASDE-X updated costs
estimates

Figure 1. Example of a Potential Collision Situation for Single and Intersecting
Runways
Item 1: Depiction of two aircraft causing a single runway head-on alert.
Item 2: Depiction of two aircraft causing an intersecting runway alert.

Source: ASDE-X Safety Logic specification
Figure 2. Three-Year Comparison of Runway Incursions

In fiscal year 2004, there were 324 runway incursions. Of these, 97 were operational
errors (caused by air traffic controllers), 171 were pilot deviations (caused by pilot error),
and 56 were vehicle/pedestrian deviations (caused by vehicle operators and pedestrians).

In fiscal year 2005, there were 326 runway incursions. Of these, 105 were operational
errors (caused by air traffic controllers), 168 were pilot deviations (caused by pilot error),
and 53 were vehicle/pedestrian deviations (caused by vehicle operators and pedestrians).

In fiscal year 2006, there were 330 runway incursions. Of these, 89 were operational
errors (caused by air traffic controllers), 190 were pilot deviations (caused by pilot error),
and 51 were vehicle/pedestrian deviations (caused by vehicle operators and pedestrians).

Source: FAA Runway Safety Office: FY 2004-FY 2006 runway incursion data

Exhibit B. ASDE-X Program Cost Variances

 Cost Element:                     Planned Cost                  Current Cost            Cost Variance
 Procurement/Production            Estimate for this             Estimate for this       for this
                                   element (as of                element (as of          element:
                                   September 2005):              December 2006)          $36,790,000
                                   $142,950,000                  $179,740,000
 Cost Element: Program             Planned Cost                  Current Cost            Cost Variance
 Management                        Estimate for this             Estimate for this       for this
                                   element (as of                element (as of          element:
                                   September 2005):              December 2006):         $26,630,000
                                   $93,470,000                   $120,100,000
 Cost Element: Software Design and Planned Cost                  Current Cost            Cost Variance
 Development                       Estimate for this             Estimate for this       for this
                                   element (as of                element (as of          element:
                                   September 2005):              December 2006):         $20,330,000
                                   $38,490,000                   $58,820,000
 Cost Element: Logistics Support   Planned Cost                  Current Cost            Cost Variance
                                   Estimate for this             Estimate for this       for this
                                   element (as of                element (as of          element:
                                   September                     December 2006):         $7,340,000
                                   2005):$11,000,000             $18,340,000
 Cost Element: Second Level        Planned Cost                  Current Cost            Cost Variance
 Engineering                       Estimate for this             Estimate for this       for this
                                   element (as of                element (as of          element:
                                   September 2005):              December 2006):         $2,400,000
                                   $5,500,000                    $7,900,000
Cost Element: Test and Evaluation   Planned Cost         Current Cost            Cost Variance
                                    Estimate for this    Estimate for this       for this
                                    element (as of       element (as of          element:
                                    September 2005):     December 2006):         $730,000
                                    $5,500,000           $6,230,000




The subtotals for these cost        Planned Cost         Current Cost            Cost Variance
elements are as follows:            Estimate subtotal    Estimate subtotal       subtotal for
                                    for these elements   for these elements      these elements:
                                    (as of September     (as of December         $94,220,000
                                    2005):               2006):
                                    $296,910,000         $391,130,000
Cost Element: Disposition           Planned Cost                 Current Cost    Cost Variance
                                    Estimate for this        Estimate for this   for this
                                    element (as of              element (as of   element: -
                                    September 2005):        December 2006):      $31,580,000
                                    $60,480,000                   $28,900,000
Cost Element: Construction          Planned Cost                 Current Cost    Cost Variance
                                    Estimate for this        Estimate for this   for this
                                    element (as of              element (as of   element: -
                                    September 2005):        December 2006):      $25,620,000
                                    $82,470,000                   $56,850,000
Cost Element: Installation*         Planned Cost                 Current Cost    Cost Variance
                                    Estimate for this        Estimate for this   for this
                                    element (as of              element (as of   element: -
                                    September 2005):        December 2006):      $10,870,000
                                    $54,980,000                   $44,110,000
Cost Element: Site survey           Planned Cost                 Current Cost    Cost Variance
                                    Estimate for this        Estimate for this   for this
                                    element (as of              element (as of   element: -
                                    September 2005):        December 2006):      $8,320,000
                                    $16,490,000                    $8,170,000
Cost Element:                       Planned Cost                 Current Cost    Cost Variance
Telecommunications**                Estimate for this        Estimate for this   for this
                                    element (as of              element (as of   element: -
                                    September 2005):        December 2006):      $8,000,000
                                    $16,490,000                    $8,490,000
Cost Element: Logistics             Planned Cost         Current Cost            Cost Variance
                                    Estimate for this    Estimate for this       for this
                                    element (as of       element (as of          element: -
                                    September 2005):     December 2006):         $4,870,000
                                    $11,000,000          $6,130,000
Cost Element: Systems                   Planned Cost                  Current Cost    Cost Variance
Engineering                             Estimate for this         Estimate for this   for this
                                        element (as of               element (as of   element: -
                                        September                December 2006):      $2,760,000
                                        2005):5,500,000                 $2,740,000
Cost Element: Other                     Planned Cost          Current Cost             Cost Variance
                                        Estimate for this     Estimate for this       for this
                                        element (as of        element (as of          element: $0
                                        September 2005):      December 2006):
                                        $5,500,000            $0
The subtotals for these cost            Planned Cost          Current Cost            Cost Variance
elements are as follows:                Estimate subtotal     Estimate subtotal       subtotal for
                                        for these elements    for these elements      these elements:
                                        (as of September      (as of December         -$92,020,000
                                        2005):                2006):
                                        $252,910,000          $155,390,000



The grand totals for all cost       Planned Cost          Current Cost                Cost Variance
elements are as follows:            Estimate grand total Estimate grand total         grand total for
                                    for all cost elements for all cost elements       all cost
                                    (as of September      (as of December             elements: Not
                                    2005):                2006):$546,520,000          Applicable
                                    $549,820,000
Source: OIG analysis of ASDE-X Life Cycle Cost Estimates: September 2005 and
current cost estimates

Note: Sensis submitted FAA cost estimates to complete ASDE-X installation totaling
$64 million. The $20 million difference between the FAA and Sensis estimates
($64 million versus $44 million) would increase ASDE-X implementation costs to
$566 million and exceed the current ASDE-X program baseline.

Note: We also found that ASDE-X program officials decreased telecommunications
costs estimates from $16.5 million to $8.5 million to remain within ASDE-X program
baseline costs. However, FAA later reported that the telecommunications costs were
actually one to two times higher than its original estimates, which could increase the
costs to at least $33 million or up to $49.5 million.
Exhibit D. ASDE-X Waterfall Schedule (as of August 14, 2006)

Table Item 1. New Establishment Airports
1    Airport           General Mitchell International (Mil. WI)   Delivery Date       Initial Operating   Operational
     Identification:                                              3/12/02             Capability Date     Readiness Date
     MKE                                                                              6/5/03              10/30/03
2    Airport           Orlando International                      Delivery Date       Initial Operating   Operational
     Identification:                                              9/25/03             Capability Date     Readiness Date
     MCO                                                                              9/1/04              9/30/04
3    Airport           Theodore Francis Green State (Prov. RI)    Delivery Date       Initial Operating   Operational
     Identification:                                              12/1/03             Capability Date     Readiness Date
     PVD                                                                              7/2/04              5/16/05
4    Airport           William P. Hobby Airport (Houston, TX)     Delivery Date       Initial Operating   Operational
     Identification:                                              10/29/04            Capability Date     Readiness Date
     HOU                                                                              8/4/05              8/31/05
5    Airport           Bradley International Airport (Hart. CT)   Delivery Date       Initial Operating   Operational
     Identification:                                              3/14/05             Capability Date     Readiness Date
     BDL                                                                              6/7/06              6/21/06
6    Airport           Phoenix Sky Harbor International           Delivery Date       Initial Operating   Operational
     Identification:                                              November 2007       Capability Date     Readiness Date
     PHX                                                                              December 2008       to be determined
7    Airport           Ft. Lauderdale/Hollywood                   Delivery Date May   Initial Operating   Operational
     Identification:                                              2008                Capability Date     Readiness Date
     FLL                                                                              April 2009          to be determined
8    Airport           John Wayne-Orange County                   Delivery Date       Initial Operating   Operational
     Identification:                                              March 2009          Capability Date     Readiness Date
     SNA                                                                              February 2010       to be determined
9    Airport           Chicago Midway                             Delivery Date       Initial Operating   Operational
     Identification:                                              August 2009         Capability Date     Readiness Date
     MDW                                                                              July 2010           to be determined
10   Airport           Honolulu International - Hickam AFB        Delivery Date       Initial Operating   Operational
     Identification:                                              September 2009      Capability Date     Readiness Date
     HNL                                                                              August 2010         to be determined



Table Item 2. Airports with Airport Surface Detection Equipment-Model 3/Airport
Movement Area Safety System (ASDE-3/AMASS)
11   Airport           Lambert-St. Louis International            Delivery Date       Initial Operating   Operational
     Identification:                                              12/3/03             Capability Date     Readiness Date
     STL                                                                              10/21/04            5/24/06
12   Airport           Seattle-Tacoma International               Delivery Date       Initial Operating   Operational
     Identification:                                              12/23/04            Capability Date     Readiness Date
     SEA                                                                              1/27/06             2/24/06
13   Airport           Hartsfield-Jackson Atlanta International   Delivery Date       Initial Operating   Operational
     Identification:                                              7/11/05             Capability Date     Readiness Date
     ATL                                                                              5/5/06              6/7/06
14   Airport           Washington Dulles International            Delivery Date       Initial Operating   Operational
     Identification:                                              12/20/05*           Capability Date     Readiness Date
     IAD                                                                              July 2008           to be determined
15   Airport           Louisville International –Standiford       Delivery Date       Initial Operating   Operational
     Identification:   Field                                      3/8/04              Capability Date     Readiness Date
     SDF                                                                              August 2007         to be determined
16   Airport           Charlotte Douglas International            Delivery Date       Initial Operating   Operational
     Identification:                                              1/13/04             Capability Date     Readiness Date
     CLT                                                                              July 2007           to be determined
17   Airport           Los Angeles International                  Delivery Date       Initial Operating   Operational
     Identification:                                              2/23/06*            Capability Date     Readiness Date
     LAX                                                                              June 2009           to be determined
18   Airport           Minneapolis-St. Paul International         Delivery Date       Initial Operating   Operational
     Identification:                                              March 2009          Capability Date     Readiness Date
     MSP                                                                              February 2010       to be determined
19   Airport            Dallas/Ft. Worth International       Delivery Date        Initial Operating   Operational
     Identification:                                         April 2009           Capability Date     Readiness Date
     DFW                                                                          April 2010          to be determined
20   Airport            Memphis International                Delivery Date May    Initial Operating   Operational
     Identification:                                         2010                 Capability Date     Readiness Date
     MEM                                                                          April 2011          to be determined
21   Airport            Denver International                 Delivery Date June   Initial Operating   Operational
     Identification:                                         2008                 Capability Date     Readiness Date
     DEN                                                                          July 2009           to be determined
22   Airport            Chicago O'Hare International         Delivery Date July   Initial Operating   Operational
     Identification:                                         2008                 Capability Date     Readiness Date
     ORD                                                                          August 2009         to be determined
23   Airport            Las Vegas McCarran International     Delivery Date        Initial Operating   Operational
     Identification:                                         September 2008       Capability Date     Readiness Date
     LAS                                                                          August 2009         to be determined
24   Airport            George Bush Intercontinental         Delivery Date        Initial Operating   Operational
     Identification:                                         December 2008        Capability Date     Readiness Date
     IAH                                                                          November 2009       to be determined
25   Airport            Ronald Reagan Washington National    Delivery Date        Initial Operating   Operational
     Identification:                                         February 2010        Capability Date     Readiness Date
     DCA                                                                          January 2011        to be determined
26   Airport            Baltimore-Washington International   Delivery Date July   Initial Operating   Operational
     Identification:                                         2009                 Capability Date     Readiness Date
     BWI                                                                          June 2010           to be determined
27   Airport            Newark International                 Delivery Date June   Initial Operating   Operational
     Identification:                                         2008                 Capability Date     Readiness Date
     EWR                                                                          May 2009            to be determined
28   Airport            Detroit Metro Wayne County           Delivery Date        Initial Operating   Operational
     Identification:                                         August 2007          Capability Date     Readiness Date
     DTW                                                                          August 2008         to be determined
29   Airport            Boston Logan International           Delivery Date        Initial Operating   Operational
     Identification:                                         February 2008        Capability Date     Readiness Date
     BOS                                                                          December 2008       to be determined
30   Airport            John F. Kennedy International        Delivery Date        Initial Operating   Operational
     Identification:                                         August 2008          Capability Date     Readiness Date
     JFK                                                                          July 2009           to be determined
31   Airport            Miami International                  Delivery Date        Initial Operating   Operational
     Identification:                                         September 2009       Capability Date     Readiness Date
     MIA                                                                          August 2010         to be determined
32   Airport            New York LaGuardia                   Delivery Date        Initial Operating   Operational
     Identification:                                         March 2010           Capability Date     Readiness Date
     LGA                                                                          February 2011       to be determined
33   Airport            Philadelphia International           Delivery Date        Initial Operating   Operational
     Identification:                                         January 2009         Capability Date     Readiness Date
     PHL                                                                          December 2009       to be determined
34   Airport            Salt Lake City International         Delivery Date June   Initial Operating   Operational
     Identification:                                         2009                 Capability Date     Readiness Date
     SLC                                                                          May 2010            to be determined
35   Airport            San Diego International              Delivery Date        Initial Operating   Operational
     Identification:                                         April 2010           Capability Date     Readiness Date
     SAN                                                                          March 2011          to be determined



Table Item 3. Support Systems
     Interim
     Contractor                                              Delivery Date
T1                      Vendor Facility/ICDLS
     Depot Level                                             10/16/01
     Support
     Program                                                 Delivery Date
T2                      FAA Program Support Facility
     Support Facility                                        2/27/04
     Mike Moroney
                                                             Delivery Date
T3   Aeronautical       FAA Academy – Oklahoma City
                                                             6/10/04
     Center
Note: Washington Dulles (IAD) and Los Angeles International (LAX) delivered to
airport but not yet installed.

Note: Louisville (SDF), Charlotte (CLT), and Dulles (IAD) International Airports did not
meet their FY 06 ORD dates.

Note: Initial Operating Capability (IOC) – The declaration by site personnel that the
ASDE-X system is ready for conditional operational use in the NAS and denotes the end
of Field Familiarization at that site.

Note: Operational Readiness Date (ORD) - Signifies the official date to switchover to the
new system.

Source: FAA Internal Program Review, March 2007
